<html>
<title> - SPACE PROPULSION</title>
<body><pre>[Senate Hearing 108-1030]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 108-1030

                            SPACE PROPULSION

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON SCIENCE, TECHNOLOGY 
                               AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   
 
 
 
                    U.S. GOVERNMENT PUBLISHING OFFICE                    
27-956 PDF                  WASHINGTON : 2018                     
           
 ----------------------------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
 http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
 U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
 E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a> 


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 3, 2003.....................................     1
Statement of Senator Brownback...................................     1
Statement of Senator Nelson......................................    15

                               Witnesses

Crocker, James H., Vice President, Civil Space, Lockheed Martin 
  Space and Strategic Missiles...................................    20
    Prepared statement...........................................    22
Knauer, Larry, President, Space Propulsion and Russian 
  Operations, Pratt & Whitney, United Technologies Corporation...    25
    Prepared statement...........................................    27
Sietzen, Jr., Frank, President, Space Transportation Association.    29
    Prepared statement...........................................    31
Weiler, Dr. Edward J., Associate Administrator, Office of Space 
  Science, NASA; accompanied by Christopher Scolese, Deputy 
  Associate Administrator, Office of Space Science...............     2
    Prepared statement...........................................     4
Wood, Byron, Vice President and General Manager, Boeing 
  Rocketdyne Propulsion and Power................................    32
    Prepared statement...........................................    34

 
                            SPACE PROPULSION

                              ----------                              


                         TUESDAY, JUNE 3, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. The hearing will come to order. 
Delighted to have you all with us today. As I have previously 
expressed, it is my intention to hold hearings that give us the 
opportunity to delve further into what NASA's vision for the 
future holds. When I announced my Chairmanship to this 
Committee in January, I stated that I embraced the 
recommendations in the final report of the Commission on the 
future of the United States aerospace industry. I believe this 
report addresses several major areas of space exploration, and 
I want to reiterate particularly what the third recommendation 
in that report stated and what the subject of this hearing is 
today.
    The third recommendation states, ``The Commission 
recommends the United States create a space imperative. The 
DOD, NASA, and industry must partner in innovative aerospace 
technologies, especially in the areas of propulsion and power. 
These innovations will accelerate the exploration of the near 
and distant universe for both human and robotic missions and 
open up new opportunities for commercial space endeavors in the 
21st century.''
    Today, especially after the tragic Columbia accident, I 
believe it is imperative that we pursue these endeavors with 
renewed spirit. I want to examine how Congress can help ensure 
a strong future for the United States in a competitive 
aerospace industry. There have been many discussions and much 
more research over the last 10 to 15 years regarding technology 
that would enable the exploration of deep space using nuclear 
propulsion instead of the more conventional propulsion systems; 
thus, taking us not only back to the Moon, but to Mars and 
beyond. It is my hope that today's hearing will shed a great 
deal of light on the status of NASA's capability for space 
exploration as well as to hear how industry is contributing to 
this research.
    Today's hearing will consist of two panels, one to examine 
NASA's space propulsion program, with an emphasis on NASA's 
Project Prometheus. Dr. Ed Weiler, Associate Administrator for 
NASA's Space Science Enterprise, will testify. NASA's Space 
Science Enterprise has had numerous successes under Dr. 
Weiler's leadership, including the Chandra and Mars Odyssey 
missions. Seated next to him is Mr. Chris Scolese, Deputy 
Associate Administrator for Space Science, and an expert 
technology advisor for Project Prometheus.
    The second panel will address the overall status of the 
propulsion industry from expert witnesses in the propulsion 
arena, and we will introduce that panel later.
    I welcome the witnesses here today, and I would note that 
we are going to continue to have a series of these hearings 
about the future of NASA. We will be looking at doing a 
reauthorization bill, and addressing some of the issues of 
structural issues within NASA in the future. But, now I want to 
focus today particularly on propulsion systems and where that 
is going to need to take us into the future.
    Gentlemen, thank you very much for being here with us 
today. Dr. Weiler, I hope I have pronounced that correctly. I 
look forward to your testimony, and I have some questions for 
you afterwards.

          STATEMENT OF DR. EDWARD J. WEILER, ASSOCIATE

         ADMINISTRATOR, OFFICE OF SPACE SCIENCE, NASA;

           ACCOMPANIED BY CHRISTOPHER SCOLESE, DEPUTY

        ASSOCIATE ADMINISTRATOR, OFFICE OF SPACE SCIENCE

    Dr. Weiler. Good afternoon, Mr. Chairman. It is my pleasure 
to be here today to discuss NASA's Space Science Program and, 
in particular, the role that new propulsion technologies will 
play in executing our vision of the future.
    Our mission is driven by science, exploration, and 
discovery. In order to continue to carry out that mission 
effectively, the Space Science Enterprise is developing new 
tools, insights, and abilities to help us answer some of 
humanity's most profound questions: How did the universe begin 
and evolve? How did we get here? Where are we going? And are we 
alone?
    Before I begin talking about where we want to go and the 
new ways of trying to get there, it may be useful to take a 
quick look back at where we started. NASA began its quest to 
explore the planets back in 1962, when we launched the Mariner 
1 and 2 missions to Venus. At that time, NASA depended on 
chemical rockets to send these spacecraft on their journeys. In 
order to escape Earth's velocity, a chemical rocket expends all 
of its thrust in the first few minutes after launch. Once the 
fuel is expended, the rocket is jettisoned, and the spacecraft 
begins its expedition by coasting along a fixed path to its 
final destination in space. It did not get any more 
acceleration; it just coasted.
    While this type of launch scenario has worked well and has 
allowed us to explore many Solar System destinations, the 
constraints it presented 40 years ago are still here today. In 
order to overcome these limitations, NASA has begun an 
aggressive pursuit of alternatives to enhance our capability 
for launching missions to Solar System objects.
    These new alternatives fall into two categories: the 
nuclear-systems program and the in-space propulsion program, 
which pursues advanced technologies that do not require a 
nuclear power source. In both cases, developing and using these 
technologies safely is our number one priority. Safety 
obviously takes on even greater significance when launching 
nuclear materials. Let me assure the Committee, NASA has more 
than 30 years of experience in launching nuclear materials, and 
we are committed to extending that safety experience to the 
next generation of nuclear power sources for space exploration.
    In last year's budget, NASA unveiled a new program called 
the Nuclear Systems Initiative, NSI, a long-term, two-part 
program to safely enable ambitious robotic missions throughout 
the Solar System and add a level of robustness and capability 
to future space missions far beyond what we have available 
today. With the release of the Fiscal Year 2004 budget, we 
identified the first mission to benefit from that initiative, 
the Jupiter Icy Moons Orbiter, or JIMO, for short. NSI and JIMO 
missions are now known together as Project Prometheus.
    One part of Prometheus will develop a new generation of 
radioisotope power systems, which can generate several hundred 
watts of electric power for spacecraft and scientific 
instruments in deep space or on planetary surfaces. A likely 
first candidate for this next-generation system is the Mars 
2009 Science Lab Mission.
    The second part of the program will develop a nuclear-
fission reactor that powers an advanced electric-propulsion 
system enabling far more capable and robust spacecrafts. JIMO 
will demonstrate this technology as it explores Jupiter's three 
icy moons--Callisto, Ganymede, and Europa--all during the same 
mission.
    The truly revolutionary aspect of such a system rests in 
its ability to provide tremendous amounts of power, hundreds of 
times the amount currently available to spacecraft in the cold, 
dark, outer Solar System or vastness of interstellar space 
where conventional power sources are not adequate. Nuclear 
fission will provide the high levels of sustained energy 
necessary to power more complex active scientific instruments, 
allow a spacecraft to visit multiple destinations on a single 
mission, and enable significantly larger amounts of data to be 
transmitted back to Earth. It will also allow for greater speed 
and faster trip times for recon or fly-by type missions.
    Let me give you an example of the amount of power I am 
talking about. The energy content in this 12-ounce can of 
Pepsi, if it were uranium-235--so if this can of Pepsi had 
uranium-235 in it--that would be----
    Senator Brownback. It would not need caffeine, would it, 
then?
    [Laughter.]
    Dr. Weiler. It would be decaf, yes.
    [Laughter.]
    Dr. Weiler. But it would be--it would make you pretty 
energetic.
    [Laughter.]
    Dr. Weiler. Anyway, the energy content of that much uranium 
would be enough to take a fully loaded 747, go up to 40,000 
feet, and cruise at 600 miles an hour, 18 times around the 
Earth, which is the distance equivalent to going to the Moon 
and back. That is the energy content of uranium-235 in this 
can, using fission power.
    Now, not every future science mission requires that much 
capability, so we are developing another suite of in-space 
propulsion technologies to suit other mission requirements. 
These technologies include aerocapture, solar sails, and the 
next generation of solar electric propulsion, to name just a 
few.
    NASA first demonstrated the effectiveness of an electric 
propulsion system on Deep Space 1 mission launched in 1998. 
Such a system uses electric power to ionize a propellent, like 
xenon gas, which is then accelerated through an electric field 
and expelled to propel the spacecraft forward. The highly 
efficient ion engine enabled DS-1 to perform a series of 
trajectory maneuvers with less fuel and greater velocity than 
would have been made possible with a conventional chemical 
engine.
    Another technology we are pursuing is aerocapture, which 
uses the drag forces generated during a spacecraft's passage 
through a planet's atmosphere to slow it down enough so that it 
can actually go into orbit around that planet without using 
large quantities of fuel.
    Solar sail propulsion ability to provide continuous very 
low thrust without the need for any propellent, appears to be 
the ideal system for upcoming Sun-Earth connection spacecraft 
which need to stay in a certain point along the Sun-Earth line 
or need to sit above poles of the Earth, for instance.
    Exploring a variety of propulsion options for future 
missions will ensure that we have all the tools we need to 
launch missions that will help us to unlock the many secrets 
the universe holds.
    Thanks to the recent and ongoing Space Science missions, we 
have made tremendous strides in our quest to answer those 
questions I mentioned at the beginning of my testimony. But, as 
with most things in life, when we find out more, we find the 
more we do not know. That is what makes pursuing these new 
technologies, and the exciting science missions they will 
enable, so vital.
    I have no doubt that in the not-too-distant future, I or my 
successor will be telling this committee of scientific 
discoveries unlike anything we have seen to date thanks to 
these investments in new space exploration capabilities.
    Thank you, Mr. Chairman, for your time. I look forward to 
working with you to continuing bringing the wonders of space 
science to the American people.
    [The prepared statement of Dr. Weiler follows:]

Prepared Statement of Dr. Edward J. Weiler, Associate Administrator for 
      Space Science, National Aeronautics and Space Administration
    NASA's Mission to understand and protect our home planet, to 
explore the Universe and search for life, and to inspire the next 
generation of explorers requires that we make strategic investments in 
technologies that will transform our capability to explore the Solar 
System. Within the Space Science Enterprise, we are developing the 
tools, insights, and abilities necessary to answer some of humanity's 
most profound questions: How did the Universe begin and evolve? How did 
we get here? Where are we going? Are we alone?
    NASA began attempting to answer such questions back in 1962, when 
we launched the Mariner 1 and 2 missions to Venus. These were the first 
missions to escape Earth's gravity and explore another planet in our 
Solar System. At that time, NASA depended on chemical rockets to send 
spacecraft on their journeys. In order to escape Earth's velocity, a 
chemical rocket expends all of its thrust within the first few minutes 
after launch. Once the fuel is expended, the rocket is jettisoned, and 
the spacecraft begins its expedition by coasting along a fixed path to 
its final destination in space. Occasionally, there is an opportunity 
for the spacecraft to swing around another planet to change its 
direction and velocity. This maneuver--called a gravity assist--is 
highly dependent upon launching during a specific, and often very 
short, launch window. Once that window ``closes,'' the time and energy 
it takes to reach the target destination can change dramatically.
    While these launch scenarios have worked well and have allowed us 
to explore many destinations in our Solar System, the constraints they 
presented over 40 years ago are still evident today. To overcome these 
limitations, NASA has begun an aggressive pursuit of alternatives to 
enhance our capability for launching missions to Solar System objects.
    In October 1998, NASA launched Deep Space 1 (DS-1), the first 
technology-demonstration mission under the New Millennium Program. Not 
only was the spacecraft developed and launched in just three years, it 
also demonstrated a number of advanced technologies. DS-1 was the first 
NASA spacecraft to utilize an electric propulsion system. This system 
uses electric power to ionize a propellant, like xenon, which is then 
accelerated through an electric field and expelled to propel the 
spacecraft forward. The highly efficient ion engine enabled DS-1 to 
perform a series of interplanetary trajectory maneuvers, yet the 
propellant accounted for only about 20 percent of the total spacecraft 
mass. In addition, the velocity increased by 10 kilometers per second 
(360 miles per hour). Performing the same maneuvers with a chemical 
propulsion system would be impractical because it would require 10 
times more propellant than DS-1 could accommodate within mission and 
launch constraints.
    Nine months after launch, DS-1 had successfully tested all 12 of 
the new technologies on-board. As a bonus, near the end of the primary 
mission, DS-1 flew by asteroid Braille, where it took images, measured 
basic physical properties of the asteroid (mineral composition, size, 
shape, and brightness), and searched for changes in the solar wind to 
investigate whether Braille had a magnetic field. In late 1999, DS-1's 
star-tracker ceased operating; however, within a few months, engineers 
had successfully reconfigured the spacecraft from a distance of 300 
million kilometers (185 million miles) and redirected it for an 
additional extended mission to encounter comet Borrelly. Such 
flexibility would not have been possible without the use of electric 
propulsion.
    In September 2001, Deep Space 1 passed just 2,171 kilometers (1,349 
miles) from the inner icy nucleus of comet Borrelly, capturing the 
highest resolution images ever taken of a comet. The daring fly-by 
yielded new data and movies of the comet's nucleus that are 
revolutionizing the study of comets. DS-1 was certainly an 
``overachiever'' in terms of a mission: it not only demonstrated all of 
the planned technologies (most importantly ion propulsion), it also 
delivered a wealth of scientific data.
In-Space Propulsion
    NASA's In-Space Propulsion (ISP) program invests in advanced 
propulsion technologies that do not depend on a nuclear fission reactor 
as the power source. The high-priority technologies in ISP include 
solar electric propulsion, solar sails, and aerocapture. System 
analysis trade studies have quantified the benefits of these 
technologies for a wide variety of challenging potential future 
missions. ISP is also making smaller investments in other technologies, 
including advanced chemical propulsion, plasma sails, momentum exchange 
electrodynamic reuse tethers, solar thermal propulsion, and ultra-
lightweight solar sails. The high-priority technologies are focused on 
achieving readiness within 3-5 years, so that they can be incorporated 
into space science missions in the not-too-distant future. One critical 
path for achieving mission implementation is the demonstration of some 
of the technologies in space prior to being used for a mission. In much 
the same way that DS-1 served as a technology demonstration for ion 
propulsion, the ISP program looks to New Millennium Program missions as 
the means for future flight demonstrations of high-priority 
technologies, such as aerocapture and solar sails.
    Future Solar System exploration missions will have diverse 
requirements depending on their specific scientific objectives; 
therefore, it is important that we develop a variety of new 
technologies to support them. Simply put, certain propulsion systems 
are better suited to particular missions than others. For example, 
there is a class of missions supporting the Sun-Earth Connection 
science theme that involves positioning advanced monitoring spacecraft 
in the Sun-Earth line at a location that requires constant thrust to 
maintain position. Independent studies have found that a solar sail 
propulsion system is optimal for this application of continuous low 
thrust, without the need for propellant. Other missions to explore 
planetary bodies could benefit from solar-electric propulsion, similar 
to that used by DS-1. With new investments being made to dramatically 
improve efficiency, we expect an even more impressive ``second 
generation'' ion system, which will be ready before the end of the 
decade. Other missions may require inserting a spacecraft into orbit 
around a planet or a moon, such as Titan. In cases where the planet has 
an atmosphere, the advanced propulsion technique called aerocapture has 
shown significant mission-enabling promise. Aerocapture uses drag 
forces generated during a spacecraft's passage through a planet's 
atmosphere to slow it down enough to go into orbit around that body 
without consuming large quantities of fuel. For missions of limited 
scale, with objectives at a single planet, this technique offers 
significant efficiencies over conventional propulsion systems.
    ISP is a technology development program that operates on the basis 
of competition among technology providers; approximately three quarters 
of the program's budget is dedicated to competitive procurements. The 
competition is open to industry, academia, and government laboratories, 
including NASA Centers. The Program uses rigorous mission and system 
analyses to establish the metrics and processes for determining which 
technologies are worthy of investment. Clear alignment with NASA Space 
Science Strategic goals is critical, and technology investments must be 
demonstrably linked to the achievement of science goals and missions in 
the NASA Space Science Strategic Plan.
Project Prometheus
    In the words of Nobel Prize winner Marie Curie ``. . . never see 
what has been done . . . only see what remains to be done.'' In the 
field of space exploration, this translates to constantly striving to 
find more effective ways to safely power, propel, and maneuver 
spacecraft, while developing innovative scientific instruments to 
explore the worlds beyond our current reach.
    Achievement of this ambitious vision requires a bold approach to 
the next generation of spacecraft, including revolutionary improvements 
in energy production, conversion, and utilization. NASA will inspire 
this bold undertaking through Project Prometheus (the nuclear systems 
program), which will develop the near- and long-term use of nuclear 
energy to power scientific missions. At present, we are pushing the 
limits of innovation with solar and chemical power. It is only by 
harnessing the tremendous energy within the atom that we can aspire to 
fundamentally improve our capability for Solar System exploration and 
enable missions of greater longevity, flexibility, and, therefore, 
significantly improved scientific return. Beyond robotic exploration, 
NASA foresees that Project Prometheus could ultimately serve as 
humankind's pathway to the outer reaches of the Solar System.
    At the heart of this undertaking is the wonder of the atom--
specifically, making use of the heat produced by the natural decay of a 
radioisotope and tapping that heat to provide electricity. That 
electricity can then be used to power the instruments aboard the 
spacecraft, as well as to propel the spacecraft forward.
    On January 16, 1959, President Eisenhower unveiled ``the world's 
first atomic battery''--the radioisotope thermoelectric generator 
(RTG). While not actually batteries, these amazing devices have become 
NASA's energy source for missions to the outer planets; they have 
proven to be rugged, compact, and capable of working in severe, sunless 
environments. NASA plans to ensure their availability for future 
missions by regenerating the Nation's capability to build radioisotope 
power systems (RPS, which includes RTGs) to support the safe and 
peaceful exploration of space and the surfaces of planets and moons.
    The importance of the radioisotope power system's contribution to 
NASA's exploration beyond Earth orbit is often overlooked. To date, 
radioisotope systems have flown on 19 NASA missions. They provided 
electricity, during lunar day and night, to five Apollo Lunar Surface 
Experimental Packages. They powered the two Viking Landers while they 
conducted research on the surface of Mars and heated the Mars 
Pathfinder Lander and its rover, Sojourner, during the frigid Martian 
nights. They also powered the Pioneer and Voyager interplanetary 
missions as they explored the outer Solar System. Amazingly, Voyagers 1 
and 2 continue to operate today, after more than 25 years in space, 
exploring the outer frontiers of our Solar System. Radioisotope power 
sources are currently powering the Ulysses spacecraft as it voyages 
around the Sun's poles, and the Galileo and Cassini spacecraft both use 
radioisotope power systems to study the Jupiter and Saturn systems, 
respectively (Cassini will arrive at Saturn in July 2004).
    Because of the utility of these ``behind-the-scenes players,'' it 
is incumbent upon NASA not only to make current radioisotope power 
systems more efficient, but also to develop the next generation of such 
systems. For example, the 2009 Mars Science Laboratory (MSL) mission 
has been baselined to accommodate either an RTG or its possible 
successor, the more efficient but less mature Stirling Radioisotope 
Generator (SRG). Additional missions could also include radioisotope 
power systems of various power levels, pending the outcome of ongoing, 
competed mission-of-opportunity proposals.
    Radioisotope power systems are limited to providing spacecraft with 
tens to hundreds of watts of power. To the average citizen, this would 
seem like a ludicrously small amount of power (akin to several 
household light bulbs) for an entire spacecraft; however, the ingenuity 
of the science and engineering communities have adapted mission plans 
to this present reality and developed spacecraft and instruments 
capable of utilizing these small amounts of power. Although we can 
envision many future space applications that might require this range 
of power, for exploration at the outer reaches of the Solar System this 
is a significantly limiting factor on our ability to gather data and, 
ultimately, to generate knowledge.
    The truly revolutionary aspect of Project Prometheus rests in its 
ability to provide orders of magnitude more power--thousands to 
hundreds of thousands of watts--to spacecraft in the cold dark outer 
Solar System, or the vastness of interstellar space. The amount of 
energy generated represents a true paradigm shift for mission planners, 
not only because of the unprecedented amounts of power available to the 
scientific community, but in the ability to provide continuous power to 
maneuver a spacecraft throughout its mission via nuclear electric 
propulsion.
    In simple terms, nuclear fission provides the high levels of 
sustained energy necessary to power more complex, ``active'' scientific 
instruments, allow a spacecraft to visit multiple destinations per 
mission, and enable significantly larger amounts of data to be 
transmitted back to Earth.
    Whereas space chemical propulsion is the ``drag racer,'' rocketing 
straight ahead at high speeds in a matter of seconds, the nuclear-
electric-propelled spacecraft is more like a 4-cylinder car that is 
capable of efficiently using its fuel for an extended period of time 
during a tour of the United States. To take this analogy further, even 
though the nuclear-electric spacecraft would start well behind its 
chemical partner, in time it would overtake and speed past its coasting 
counterpart. In addition, nuclear-electric-propelled spacecraft will 
afford us the opportunity to dictate new ground rules for observation 
and, as such, we will be rewarded with days, weeks or even months of 
up-close observations of single or multiple targets.
    Moreover, the spacecraft acceleration and course-change capability 
offered by nuclear-electric propulsion would also open up new launch 
opportunities. We are currently severely limited by the ``geometry'' of 
the Solar System; that is, chemically propelled planetary missions can 
launch only during limited periods when the relative positions of the 
planets will allow a spacecraft from Earth to reach a particular 
destination.
    These capabilities, however, are not an end unto themselves. 
Rather, Project Prometheus will leverage the extensive work done to 
date on space nuclear systems to embark on an ambitious science 
mission, the Jupiter Icy Moons Orbiter (JIMO), which will be enabled by 
nuclear fission electric power and propulsion. At the same time, JIMO 
will respond to the National Academy of Sciences' ranking of a Europa 
orbiter mission as the number one priority for a flagship Solar System 
exploration mission.
    Because of the unprecedented capabilities made possible by space 
nuclear power, NASA will be able to go well beyond the Academy's 
recommendation. JIMO's nuclear-electric propulsion will provide the 
maneuverability to orbit all three of Jupiter's icy Galilean moons and 
respond to new discoveries, an impossible feat under the current 
technology paradigm. This will allow months of scientific investigation 
at these destinations that will far surpass the brief fly-bys made by 
Galileo and Voyager. The science instruments used to study these worlds 
will have far more power than those on Galileo and Voyager. Options for 
new instruments include high-power radars to probe the subsurfaces of 
the moons looking for oceans that could harbor life. More powerful 
cameras and spectrometers could document the entire globe looking for 
evidence of this life, and lasers could measure the topography and 
characteristics of the surface. Unlike previous missions, the power 
available on the spacecraft will allow all of the instruments to be 
operated simultaneously throughout the mission. Increased mission time 
will allow JIMO to investigate the entire surface of a given moon and 
look for any changes due to new geysers or other eruptive activity. 
This activity could bring fresh material from underground oceans to the 
surface--material that could contain evidence for life. The huge 
amounts of data gathered by JIMO will be transmitted to Earth in 
torrents, using high-powered transmitters and optical communication 
links.
    Looking beyond JIMO, future missions making use of nuclear systems 
might visit destinations such as:

  <bullet> Comets: to explore their surfaces and interiors and return 
        samples to better understand the building blocks of the 
        Universe.

  <bullet> Mars: to dramatically expand our capabilities for surface, 
        on-orbit exploration, and sample return.

  <bullet> Various other destinations: interplanetary or interstellar 
        probes to study Saturn, Uranus and Neptune, or investigate the 
        interstellar matter beyond the Kuiper Belt region.

    Project Prometheus will enable the fulfillment of many of NASA's 
most challenging scientific goals, as well as our ability to answer 
some of life's most intriguing questions: Is there life elsewhere in 
the Solar System? How was the Solar System formed and what is its 
future? Our pursuit of answers to these questions will be greatly 
enhanced when we are able to explore space in a manner fully under our 
control and using state-of-the-art science instruments.
    Although accessing such energy resources in space will be a boon to 
robotic missions, Project Prometheus may have its most compelling long-
term impact in expanding the capability of humans in space and perhaps 
one day serving as our pathway to the outer Solar System.
    Use of nuclear and other advanced technologies involves certain 
risks and responsibilities. In all of NASA's missions, safety is the 
primary operating principle, and this has always been the case with our 
nuclear activities in particular. Historically, the United States has 
demonstrated an excellent record of safely using nuclear power in space 
exploration. NASA has over 30 years' experience in the successful 
management and operation of radioisotope power systems. Working with 
the Department of Energy, the agency responsible for development and 
production of nuclear technologies, NASA will extend that safety 
experience to the design, manufacture, and space flight of a fission 
reactor. NASA will continue to engage and solicit expertise in risk 
management and risk assessment and will fully comply with environmental 
and nuclear safety launch approval processes applicable to the use of 
nuclear power systems in outer space. Safety must continue to be the 
predominant factor as we explore the Universe and attempt to unlock the 
many secrets it holds.
    This is an exciting time for space science. We are standing at the 
threshold of a new era in space exploration. There is a renewed sense 
of excitement and anticipation that the future holds great things for 
NASA. Our efforts to improve propulsion and power capabilities are a 
major reason for this optimism. I will conclude my remarks by noting 
one of the major findings of the recent Commission on the U.S. 
Aerospace Industry, which concluded that space power and propulsion are 
the key technologies that will enable ``. . . new opportunities on 
Earth and open the Solar System to robotic and human exploration . . 
.''.

    Senator Brownback. Mr. Scolese, did you have any statement 
that you wanted to make?
    Mr. Scolese. No, sir.
    Senator Brownback. Good.
    Thank you very much for that condensed version and 
comments.
    Project Prometheus plans to use nuclear technologies on a 
robotic satellite. Are there any long-term plans to use this 
propulsion technology on spacecraft occupied by humans? And 
would human use require different design and safety 
requirements?
    Dr. Weiler. Let me try the first part of that, and I will 
ask Mr. Scolese to answer the second part.
    Obviously, we have not flown a nuclear reactor in space for 
a long, long time, and we have to redevelop the technology. The 
first use of that----
    Senator Brownback. When was the last time you did fly a 
nuclear reactor in space?
    Dr. Scolese. I believe it was 1965. The Air Force flew it 
on a mission then.
    Dr. Weiler. So we have got a lot of homework to do to get 
back up to speed, take advantage of new technologies, and the 
first--before this year's budget, in the Fiscal Year 2003 
budget, the Nuclear Systems Initiative was just technology. 
There was enough money to go out and start working on the 
technologies for a nuclear reactor. It was felt, in this year's 
budget, that we could make that program more focused by 
actually having a mission to go after. Because too many times 
at NASA, we have gotten engaged in technology programs that 
really had no focus, and not much has come out of them. So we 
felt that having a focus, like this JIMO mission, would give us 
a really good direction to go toward with our technology work.
    So the first use of this nuclear technology will be on the 
JIMO mission, and we have ideas for many other science 
missions. In the long range, there is no question that 
eventually humans could take advantage of this kind of 
technology, both in power--power probably first, and propulsion 
perhaps later. If we are ever to send, say, a human expedition 
to Mars, and they have to stay on the surface for up to a year 
or 18 months to wait until things align correctly to come back 
home, you need power on the surface, and the best way to 
generate that power reliably would be with a nuclear reactor.
    So some of the technologies we are developing now could be 
evolved into those that could be used for humans eventually.
    Chris, do you want to add anything?
    Mr. Scolese. Just to add that, in fact, we are working with 
the NASA space architect to see how we can evolve the 
technologies that we are developing under Project Prometheus 
for use in human applications, and that is an ongoing activity 
right now. Some of the technologies that are being developed, 
as Dr. Weiler said, could be used to support a human 
expedition, perhaps directly from the JIMO mission. We are 
looking at power levels there, on the order of several tens of 
kilowatts, which would be adequate to support, you know, humans 
on a mission to the Moon or on planetary surfaces. So we are 
looking at those, but we do not currently have all the details 
worked out on how that will be.
    Senator Brownback. Is this the most likely power source 
that we would be working with on use of power into space or 
propulsion? I mean, is this--you have mentioned several 
possibilities--solar sails, aerocapture--but is this the most 
likely one that is going to hold the most likely promise for us 
in the next 10 years?
    Dr. Weiler. Let me be more specific. Nuclear power 
sources--nuclear fission propulsion--nuclear power itself, is 
always going to be expensive. It is not going to be cheap, you 
know, so you only want to use it where you really, really need 
it. In the inner Solar System--say, Mars, Venus, Mercury, 
missions to the Moon--you really have abundant sunlight, so 
solar power is a very good alternative.
    Solar-electric power--I referred to the Deep Space 1 
mission, in the inner Solar System, you can generate thousands 
of watts just with solar-electric power and a relatively small 
solar array. So you really do not need to use nuclear reactors 
inside of the local Solar System.
    Once you get about to Jupiter, the amount of sunlight that 
reaches Jupiter is one-twenty-fifth of what hits the Earth. So, 
you know, think of the sun giving us a 100-watt light bulb; at 
Jupiter, it is like a four-watt light bulb. So you really 
cannot use solar energy, Jupiter and beyond. So for missions, 
robotic missions, beyond Jupiter, you just have to really rely 
on nuclear power sources. And, of course, those planets tend to 
be further away, so you would like to have some kind of 
propulsion system, too, to continually propulse yourself.
    So in terms of nuclear power in the future, I think if we 
are going to have a future in the outer Solar System and really 
explore the outer Solar System, nuclear power is a must. If 
humankind is ever to go to the stars, ever going to send a 
probe to the stars, I do not see any other way to do it right 
now with the technologies we know of today.
    Senator Brownback. I have had people--Bob Walker, the 
Chairman of the Commission, that I mentioned to you--saying 
that we had to use nuclear technology, even to get to Mars on a 
manned mission, because it would increase the speed at which we 
could get there. In current technologies that we have, as you 
mentioned, you get up into space and then you coast the rest of 
the way. It is going to take too long, probably, for us to make 
it there and back with human travel. You would have to go 
nuclear to speed it up to move faster. How would you respond to 
that thought?
    Dr. Weiler. There is a complex relationship between speed 
and capability and payload and mass and how those all work 
together. It is difficult to answer in just a few short 
sentences. There is no question that if you ``put the pedal to 
the metal,'' so to speak, and accelerate all the way, you can 
get places faster. But you have got to remember, you probably 
want to stop, too. So at some point, you have got to turn 
around and start propulsing the other direction. So how much 
speed you can actually gain depends on what you want to do.
    What nuclear-fission propulsion would do for human missions 
eventually going to Mars is, it would give you a lot more 
options on when you could leave for Mars and when you come back 
home. Right now, with chemical propulsion, you are limited to 
one window every 22 months. If you were to do a manned mission, 
a crewed mission, to Mars today, you have to pick a launch time 
that is--you know, at some point, and you will not have another 
launch window to Mars for 22 months, just because of the way 
the planets line up in the Solar System. Once you got to Mars, 
and it takes about 6 to 7 months, on a coasting trip, you would 
have to sit there for 18 months before you could line up again 
to come home. So any human mission right now to Mars would be 3 
years, with chemical propulsion.
    Senator Brownback. Minimum.
    Dr. Weiler. Minimum. And, of course, if you are going to go 
to Mars and sit on the surface for 18 months, one could argue 
you had better have a pretty reliable power source that works 
at night, works during dust storms, et cetera, et cetera, et 
cetera, to maintain your crew.
    Now, what nuclear-fission propulsion would allow you to do 
is not necessarily get places faster, but open up those 
windows; maybe come home when you want to come home, after a 
year, or whatever. The trip may actually take longer, but at 
least you could get home sooner, if you know what I mean. I do 
not know if that helps.
    Senator Brownback. Well, it does help, but how long would 
it take us now to get to Mars? Not when everything would line 
up, but to get there?
    Dr. Weiler. Well, see, Mars and Earth are locked in a 
pattern where every 22 months, if you launch, you can catch it 
when it is closest to us----
    Senator Brownback. Right, you catch the right----
    Dr. Weiler.--when it is closest to us, only 34 million 
miles away. If you pick the wrong time, it can be as much as 
200 million miles away. So that is a factor of six in distance.
    Senator Brownback. But when you would launch, which would 
be when it is closest, or when you would hit that window----
    Dr. Weiler. Right.
    Senator Brownback.--how long would it take us now, under 
the technology we currently use?
    Dr. Weiler. Today?
    Senator Brownback. Yes.
    Dr. Weiler. Six months, at best. At best. In fact, we 
hopefully will be launching a Mars robot to Mars on Sunday. 
That is the best possible apparition of Earth and Mars for 
another 20 or 30 years. Mars will never be closer to us than it 
will be in 2003. In fact, it will be the brightest object in 
the sky, other than the sun and the moon, this summer. So this 
is the best possible time, and it still takes 6 months. 
Because, again, we accelerate like crazy--it is a dragster--we 
accelerate for 7 minutes and then we shut off the engine and 
coast and coast and coast and coast. That is why we want to 
develop these in-space propulsion--you know, it is like keeping 
a foot on the gas pedal a little bit.
    Senator Brownback. If you have these new propulsion 
systems, if you are successful in developing the new propulsion 
systems, and you have at the most favorable window that is 
going to be available within the next 10 years of our moving to 
Mars, how quickly could you narrow that time-frame down from 
the 6 months that it currently is?
    Dr. Weiler. We would have to do some calculations on that. 
But, right now, the window for a chemical launch is about a 
month, a month and a half long. If you had in-space propulsion 
technologies, you could open that window up a great deal, and 
we can get back to you formally with an answer.
    Senator Brownback. OK.
    [The information referred to follows:]

    Nuclear power and electric propulsion will offer many benefits for 
space exploration that are unavailable today using conventional 
technologies. It will offer us unprecedented maneuverability, ample 
power for very robust science instruments, significantly increased 
communications capabilities, and in some cases, reduced travel times.
    Of these benefits, reduced travel time is actually not applicable 
to the example cited--i.e., shortening our current best travel time to 
Mars for a mission similar to the Mars Exploration Rovers, which is 
approximately 6 months. Because Mars is a relatively close Solar System 
destination, nuclear electric propulsion would not shorten the travel 
time much, if at all, for such a mission. Shortly after this type of 
spacecraft would start accelerating under nuclear electric propulsion, 
it would then have to decelerate in order to orbit the Red Planet.
    The ability for nuclear electric propulsion to decrease our travel 
time takes on a bit more significance with regard to very distant 
objects in our Solar System or beyond. In addition, nuclear power and 
electric propulsion also give us the ability to deliver much heavier 
payloads (compared to previous missions), operate much more capable 
exploration instruments, and return much more information to Earth.

    Dr. Weiler. It depends on the particular window, you know, 
how much propulsion you have, et cetera.
    Senator Brownback. But you are convinced that we have to 
develop the nuclear technology for use of power in space and 
propulsion options. Is that correct?
    Dr. Weiler. Mr. Brownback, I was inspired to become an 
astronomer by the astronauts in the 1960s. We are still using 
the same methods of propulsion on Sunday to go to Mars that we 
used to put up John Glenn and Alan Shepard 40 years ago.
    Senator Brownback. Why?
    Dr. Weiler. It is because we did not spend a lot of money 
on new technologies, like nuclear. We tried. NASA tried in the 
early 1990s. It did not go anywhere. But this is a window of 
opportunity for the future that does not come around very 
often.
    Senator Brownback. Is the budget adequate this time around 
to develop the new propulsion technologies?
    Dr. Weiler. I think we have got an adequate budget for the 
first 5 years of the program. We have about $3 billion budgeted 
in the President's 2004 budget over the next 5 years. That is a 
good solid budget to get the technology going and to develop 
mission plans for the first mission and to really understand 
where the costs are, where the technology in the United States 
is. I mean, nuclear has not been a very popular thing in the 
United States for many years, and we have got to redevelop some 
technologies. We have got to get some kids, graduate students, 
interested in nuclear engineering again.
    You should know, as a physicist by background, I happen to 
believe that physics is important. You have to understand it 
and accept it. And I believe the future of this country, in 
energy, is ultimately nuclear, unless somebody discovers some 
new physics I do not know about. But if we are going to have 
energy for this country 100 years from now, 200 years from now, 
300 years from now, we had better be educating a few nuclear 
physicists today. And I think this program will do wonders for 
getting kids interested in nuclear engineering again.
    Senator Brownback. And why do you say that? Do you think 
just that the design and the vision of using this power in 
space will translate into a lot more interest and focus on it 
here?
    Dr. Weiler. This kind of technology allows us to go to 
Jupiter; and not just fly by moons for a few minutes, but to go 
into orbit around moons, understand whether there are oceans 
under the ice caps, whether there might be life there. It 
enables us to go to Neptune, Uranus, Pluto, and go into 
orbiting missions. It allows us to even think about sending 
missions to other stars. Now, these missions will take a long 
time, but at least we can conceive of such missions now with 
nuclear power. We cannot even conceive of such missions with 
chemical. The kinds of missions we are talking could not be 
done with chemical power. You could not do a Jupiter Icy Moon 
tour with chemical power. The physics just is not there.
    Senator Brownback. So if we are to go anywhere beyond the 
neighboring planets, we have to develop the nuclear technology 
for power and propulsion.
    Dr. Weiler. Not just that. I would argue that if we want to 
do more than just fly-by moons and planets and really do in-
depth science, and perhaps even more than science someday, you 
have to have this kind of capability. I would maintain if you 
really are serious about sending humans to Mars and keeping 
them there for awhile, you also have to have this technology. I 
just cannot conceive of sending humans to Mars and depending on 
solar panels or fuel cells for power.
    Senator Brownback. If more of an investment were made by 
the Congress in these propulsion systems, could they be 
developed more rapidly? A more rapid ramp-up in funding?
    Dr. Weiler. That is the one I will let my nuclear expert 
here take on.
    Senator Brownback. Or is the technology just going to take 
time to build up to it?
    Mr. Scolese. Yes, sir. I think it will take some time to 
develop it. In order to get a system to work in space, we need 
to develop the fuel. And a lot of work, as Dr. Weiler had 
mentioned earlier, had been done in the late 1980s and the 
early 1990s. We need to restart those capabilities. We need to 
produce that fuel. We are probably 5 years, 6 years, away from 
being able to have enough of that capability available to us to 
make that happen.
    Certainly a crash program could perhaps do something, but 
with the program that we have laid out, even with, you know, 
more money, unless it was significantly more money, I think we 
are talking 5, 6, 7 years before we could have a system that 
would really be ready to fly in space, at the earliest.
    Senator Brownback. Even with robotics to fly it in space, 
it would be 5 years, 6 years, minimum?
    Mr. Scolese. Yes, sir. I mean, the technologies--we know 
what we need to do. And that is the good news. We spent some 
time last year looking out at industry to see what capabilities 
were there, to go back and learn the lessons that were learned.
    Senator Brownback. And what is it that we learned there? 
What do we know we need to do?
    Mr. Scolese. We know we need to start up a fuel production. 
Unlike an Earthbound reactor that we have, they can use water 
to cool it and to convert to steam or to allow it to turn a 
turbine to make electricity. We cannot do that. That would be 
much too heavy. So we have to do two things. We have to use a 
different type of fluid. We are thinking of either a gas or a 
liquid metal. We have to operate at higher temperatures. Those 
two things will allow us to make the reactor small enough to 
fit into a rocket, light enough to allow us to get the maximum 
benefit out of propulsion.
    That requires a lot of activity in materials research. 
There were some materials that were developed in the early 
1990s. We have to redevelop that and verify it and demonstrate 
that it will operate for the lifetimes that we need. This 
Jupiter Icy Moons Mission will last several years. A mission to 
Mars with humans will last several years.
    There is a lot of work that has to be started, and there is 
a lot of capability that has to be demonstrated. So a fair 
amount of testing still needs to be done, and a fair amount of 
technologies have to be restarted. And then when you start 
talking about human systems, we have to start talking about 
different kinds of shields to protect the humans from the 
radiation that comes from a reactor, just as we do on the 
Earth. But, again, you cannot use the big containment systems 
that we have on the Earth.
    So it is a matter of taking what we have learned on the 
Earth, miniaturizing it, making it more efficient so that we 
can fly it in space.
    Dr. Weiler. If I could add a bit on the issue of speeding 
up the program or going faster, we want to go at a rate, also, 
that always keeps safety in mind. We have an excellent safety 
record at NASA, 30 years of flying nuclear materials, and we 
want this program to always have safety in front of it. So I 
get a little nervous about the term ``crash program''----
    [Laughter.]
    Dr. Weiler.--when we talk about something to do with 
nuclear. But let me also point out very, very strongly, when we 
talk about flying a nuclear--a system like a nuclear-fission 
reactor, these reactors would be launched cold. OK? They would 
not be launched active. They would not go active until we 
actually reached escape velocity from the Earth. That is an 
important point to keep in mind.
    Senator Brownback. And you, as you pointed out, have been 
flying nuclear material for 30 years, so this is not a new 
concept of having to be safe in the use of nuclear materials. 
You have been doing it for 30 years.
    What physical size and weight of a nuclear reactor are you 
talking about that need to be able to make this operational?
    Dr. Weiler. The analogy I like to use, although perhaps not 
the best--Dr. Weiler knows it--it is about the size of the 
trash can that is in your office. That is about the size of the 
reactor that we are talking about doing. And then the equipment 
that would go around it would make it slightly bigger than 
that.
    The biggest piece of this system is not the reactor, it is 
not the fuel that will make the heat; it is actually the 
radiator. It is how to get rid of the heat that is produced by 
the reactor. We do not have perfect conversion systems. And on 
the ground, we have water that we can use to get rid of that 
waste heat. In space, we do not have that. So actually the 
largest piece of the system will be the part that gets rid of 
the waste heat from----
    Senator Brownback. And your view of the----
    Mr. Scolese.--the conversion process.
    Senator Brownback.--and your view of the technology is that 
this is clearly achievable within a certain window of time, 
within a 10-year window of time?
    Mr. Scolese. Yes, we believe that.
    Senator Brownback. And a high probability that this would 
be achievable within a 10-year window of time?
    Mr. Scolese. We believe that now, and we are in the process 
of validating that. As Dr. Weiler said, we have still a couple 
more years of studies and activities that we need to do to go 
off and verify that statement. To that end, we have awarded, 
this year, three study contracts to firms to go off and look at 
mission concepts, and schedules and plans, to verify if, 
indeed, what we believe to be the case from last year is true. 
And, in addition, we are funding some research activities to go 
off and see if there is some stuff, some activities, that we 
may not be aware of that might either accelerate that or 
improve our chances of success.
    But all of the work that we have done so far indicates that 
within about a decade we should be able to achieve those 
objectives.
    Senator Brownback. Astronaut Bill Nelson, I turn the 
questions over to you.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Let me describe a propulsion system, and I would like you 
to critique it. Mr. Chairman, it is a propulsion system that 
could take us to Mars in 39 days. We would accelerate half of 
the way there, and we would decelerate the remaining half. It 
is Franklin Chang's VASIMR rocket, a 30-university consortium 
that is working on it, of which he has a working model now. It 
would also create a magnetic field that would offer some 
protection from solar explosions. Because of the acceleration 
halfway and the deceleration, you would have a semblance of 
gravity for the crew during the 39 days.
    Dr. Weiler, would you give me your thoughts on Franklin's 
rockets?
    Dr. Weiler. I am not fully up to speed on what Mr. Chang-
Diaz has proposed, but he has been involved with our program. 
His technologies, I believe, are quite advanced compared to our 
rudimentary nuclear-fission rockets. Let's see, I know that he 
has applied to our in-space propulsion field.
    Our in-space propulsion program, where we fund this type of 
research, is an openly competed program done by peer review. To 
this date, the person to whom you referred has not succeeded in 
getting his research approved through that peer-review process.
    My own impression of what I know of it is, is that it is a 
very interesting concept, and there is nothing wrong with it in 
terms of physics. But, in terms of the ability to get to that 
kind of capability, it will take a much greater leap in 
technology than the kind of stuff we are talking about here.
    We are talking, I think, with Mr. Diaz's program, something 
that is in the megawatt range--yes, that is what I remember, 
the megawatt range, multi megawatts, several million watts he 
needs to power this thing. We are talking about our first 
reactor being maybe 100 kilowatts.
    Mr. Scolese. Yes.
    Dr. Weiler. So we are maybe a factor of ten away in power 
output to what he would need just to power his system.
    So am I dismissing it out of hand? Absolutely not. What I 
am saying is, we may not be ready for it at this point in time. 
And I like to think of the analogy, having had kids, you have 
got to really take baby steps before you can run. And I think, 
in his case, you know, it is a full trot, and we are still 
trying to crawl out of our crib in this nuclear world.
    Senator Nelson. It is my understanding there was a peer 
review last November, and the peer review approved his project.
    Mr. Scolese. Yes, I think--I understand your question. It 
was not peer reviewed by our process. He was also working with 
other aspects of NASA, and that question may be more 
appropriate for Mr. Readdy.
    Senator Nelson. And is his funding continuing?
    Mr. Scolese. Not from Code S. Not from the Office of Space 
Science. In the Office of Space Science, we have a very strict 
policy that we do not just give money to NASA centers because 
they are NASA centers. Any technologist, any engineer, any 
scientists at a NASA center must compete for his or her 
research money, just as anybody at a university or the 
commercial world. So he does not get any directed funding from 
the Office of Space Science. However, we welcome his proposal.
    Senator Nelson. Where was his funding before?
    Dr. Weiler. Code M.
    Senator Nelson. And what is that?
    Dr. Weiler. That is Office of Space Flight. I am sorry.
    Senator Nelson. And is that continuing?
    Dr. Weiler. I am not at--I would not have that knowledge.
    Mr. Scolese. I do not have that knowledge, either. We could 
find out for you.
    Dr. Weiler. He has a demo. He is being funded by the fusion 
community, outside of NASA.
    Senator Nelson. Is it still a NASA project?
    Dr. Weiler. We will have to get back to you and have the 
Office of Space Flight respond to you, because this, again, is 
out of our realm of funding.
    [The information referred to follows:]

    Yes, the Office of Space Flight is continuing to provide funding 
for this project. In FY 2003, the VASIMR project has received a total 
of $1,300,000, which is supporting continued operations through the end 
of September 2003. Planning for FY 2004 is in progress; no final 
decisions on the level of funding have been made.

    Senator Nelson. It is interesting that your comments on 
it--I have been there, and I have seen that project, and I have 
seen it demonstrated. As a matter of fact, I think there is--
you all have not, I take it.
    Dr. Weiler. Well, I am curious, how did he demonstrate it 
if he needs megawatts of power?
    Senator Nelson. I cannot answer that, but I have seen the 
thing run, and it is in that big building where all of the EVA 
activity is planned, in the big pool, right by Ellington Field. 
And I would like for somebody in your office to take a look at 
it.
    Dr. Weiler. OK.
    Senator Nelson. And I would like a report back to the 
Committee.
    Dr. Weiler. We will be happy to do that, Senator.
    [The information referred to follows:]

    Three representatives from the NASA Office of Space Science (OSS) 
visited Dr. Franklin Chang-Diaz at Johnson Space Center (JSC) on July 
13, 2003. Dr. Chang-Diaz gave a tour of the laboratory where VASIMR 
technology research is conducted; the plasma generator and heating 
element of the ground-based technology development unit were being 
tested. Further technology development is needed to build the portion 
of the system that would provide thrust; in addition, further 
technology development and testing is required to incorporate 
superconducting magnets in all portions of the system and build a 
system with sufficiently low mass for flight. Consequently, the 
Technology Readiness Level (TRL) is currently approximately 2 (on the 
scale of TRL 1-9). Initial planning has been performed for a flight 
test on the International Space Station; the ISS likely provides 
sufficient power to operate the system, and VASIMR could produce thrust 
to offset ISS' upper atmospheric drag. Dr. Chang-Diaz noted that VASIMR 
is currently funded by the Office of Space Flight FY 2003 and FY 2004 
budget, and he did not request additional funds from the Office of 
Space Science. The OSS representatives noted that the office's policy 
is to fund technology research competitively.

    Senator Nelson. All right, you were just handed a note. 
What was that?
    [Laughter.]
    Dr. Weiler. Nothing relevant.
    [Laughter.]
    Dr. Weiler. No, we will be happy to get a report back to 
you. But, once again, I do stand by my comment, we are open to 
all proposals for all credible research, but we do believe in 
peer review and competition in the Office of Space Science.
    Senator Nelson. All right. Then, in your report back, will 
you report on, so that it is clear to the Committee, the peer 
review that I had understood that had occurred and that he had 
the project, which is a 30-university consortium, had been 
approved?
    Dr. Weiler. Right.
    Senator Nelson. And so if that is not accurate, I would 
like to know that.
    [The information referred to follows:]

    In October 2002, Office of Space Flight (OSF) chartered a peer 
review panel to assess the VASIMR project's fundamental scientific 
feasibility, as well as its technical capacity to support OSF-class 
missions. In December 2002, the panel issued its report and recommended 
that the VASIMR project take the following steps: establish a clear 
critical path; identify specific and measurable goals and objectives; 
establish distinct and quantitative milestones; and appoint a dedicated 
project manager.
    OSF accepted the peer review recommendations and provided specific 
direction to JSC in December 2002 to submit a project plan that focuses 
VASIMR efforts on achieving TRL 4 (system validation in a laboratory 
environment) by September 2004, and reflects a project-like management 
organization and planning processes.
    In December 2002, OSF directed JSC to submit an integrated VASIMR 
project plan to OSF by February 15, 2003 that reflects the Peer Review 
Panel's recommendations. JSC submitted a Project Management Plan and 
Technical Task Agreement (TTA) on February 14, 2003 describing project 
scope, deliverables, management structure, schedule and budget. Due to 
budget constraints, OSF was not able to fund the full project. However, 
OSF and JSC negotiated a funding profile for FY 2003 that allows 
performance of risk mitigation experiments to accomplish the high 
priority VASIMR research goals and at the same time makes significant 
progress towards meeting the intent of the Peer Review Recommendations. 
In April 2003, JSC submitted a revised TTA for FY 2003 activities. OSF 
approved the TTA and funding for FY 2003.

    Dr. Weiler. It could be, Senator. I can only speak for the 
Office of Space Science. Again, all of our research is openly 
competed, announced in all kinds of announcements, newspapers, 
et cetera. We have not funded his research. He has not proposed 
it. He has not won any money.
    Senator Nelson. I understand. But you are a representative 
of NASA, and I would----
    Dr. Weiler. Right.
    Senator Nelson.--like to know who has funded and----
    Dr. Weiler. I will----
    Senator Nelson.--what has happened.
    Dr. Weiler. We will be happy to find out.
    Senator Nelson. That is terrific.
    Dr. Weiler.--issue a formal report.
    Senator Nelson. That is terrific.
    Senator Brownback. Do you have any projections on cost of 
developing the nuclear technology that we discussed over the 
period of years that it would take to get it operational?
    Mr. Scolese. Right now, we are at the--as Dr. Weiler 
mentioned earlier--about $3 billion, through Fiscal Year 2008. 
We are still in the process of developing what we believe the 
cost would be. Those projections are based on what we 
understand today, the technologies that we have to develop, 
what it would cost to develop those technologies to build the 
test facilities, where needed.
    And I should point out it is composed of the three parts 
that Dr. Weiler mentioned. Part of that money is for the 
radioisotope thermoelectric generators, roughly about a third 
of it, about a billion dollars of it. That, we are very 
confident in those numbers, but--to restart those lines and to 
produce what we need for future missions and anticipated future 
missions.
    And as far as the fission line is concerned, it is based on 
the estimates that I mentioned that we developed last year and 
we hope to finalize in the next 2 years for the mission costs.
    Does that answer your question?
    Senator Brownback. Yes, it does.
    Dr. Weiler, are any other countries working on propulsion 
technologies that are different from the ones that we and the 
Russians have been using for years?
    Dr. Weiler. Not that I know of. Not in the area of nuclear. 
I know, obviously, you know, there are other countries working 
on chemical propulsion, because other countries launch things. 
But in terms of advanced propulsion, like--solar electric, I 
think the Europeans, they have--they are doing some research in 
that area, and they are probably going to fly something sooner 
or later in it.
    In terms of nuclear-fission power, I am not aware of any 
country----
    Senator Brownback. OK.
    Dr. Weiler.--that is anywhere near where we are.
    Chris?
    Senator Brownback. So, otherwise, it is solar electric, but 
it will----
    Dr. Weiler. Yes.
    Senator Brownback.--that will take you a certain distance, 
and it yields only a certain----
    Dr. Weiler. Right. It is good for the inner----
    Senator Brownback.--quantity of----
    Dr. Weiler.--inner Solar System.
    Senator Brownback. But it is a limited energy source then, 
as well. What do we think we could get that maximum up to of 
solar energy under good efficiencies?
    Dr. Weiler. We could probably get up to solar outputs of 
5,000, 10,000 watts in the inner Solar System.
    Mr. Scolese. Well, maybe up to as much as 100 kilowatts, is 
about the most you are going to get if you look at the space 
station. And that is in Earth orbit. As you move away, it is 
going to get much less, for a number of reasons. But those 
arrays, as you can see when you look at television----
    Senator Brownback. Huge.
    Mr. Scolese.--are huge. It would be hard to carry around, 
certainly on a robotic mission, and they would add some 
difficulty to any mission. But about tens of kilowatts is about 
what you can----
    Dr. Weiler. Yes.
    Mr. Scolese.--expect with solar arrays.
    Dr. Weiler. DS-1, Deep Space 1, was about----
    Mr. Scolese. Five.
    Dr. Weiler.--5,000 watts, for instance. That was our first 
technology experiment.
    Senator Brownback. It was about 5,000?
    Mr. Scolese. 5,000.
    Dr. Weiler. 5,000 watts. And we achieved, I think, an 
increase in velocity over just coasting, of about ten 
kilometers per second, I believe. It is about six miles per 
hour--or six miles per second--increase in velocity over the 
course of a mission.
    Senator Brownback. And what do you think you could get with 
nuclear propulsion in increase of velocity?
    Dr. Weiler. Oh, if your only goal was speed, nuclear 
fission, you could probably triple or quadruple your velocity 
going out of the Solar System.
    Senator Brownback. And would you be able to use that power 
also to decelerate?
    Dr. Weiler. Yes. It is just a matter of how much fuel you 
want to carry, and the fuel, in this case, would be xenon gas.
    Senator Brownback. OK.
    Dr. Weiler. But, again, the analogy I wanted to use before, 
which I think is critical to understand this, is there is a lot 
of confusion about speed versus capability. And the way I like 
to look at our planetary program over the last 40 years, no 
offense, is that every mission we send is like a covered wagon. 
It takes a long time, and it carries a certain kind of payload. 
We are not talking about nuclear being a Ferrari or something 
going to Los Angeles. It is more like the original steam 
engine. The original steam engines, over the covered wagons, 
they were not that much faster. I mean, they went a little 
faster, but they chugged along. But what they added that the 
covered wagon did not have was the ability to pull 5, 10, 20 
rail cars, and you could build cities with steam engines. You 
could not build cities with covered wagons. And that is the 
better analogy, I think. It is a steam-engine analogy versus 
the Ferrari-type analogy. We are not doing this only for speed; 
we are doing it for capability.
    Senator Brownback. And, again, I want to just make sure I 
have a fine point on this. For us to further develop in space 
exploration, propulsion power, you just have no doubt in your 
mind that you have to develop this nuclear capacity for us to 
be able to do that. You do not see another viable option in 
your assessment at the present time. Is that correct?
    Dr. Weiler. Let me put a fine point on this, especially 
with Senator Nelson's comments. This is just the first step. I 
think the physics of nuclear is what we are talking about here. 
Once you have the capability of building one reactor, and then 
bigger and bigger reactors, you can start talking about more 
exotic technologies, some of which the Senator pointed out. 
There are other technologies. Instead of having the power from 
the nuclear reactor make electricity and ionize the gas, you 
could feed fuel into the reactor. That is called nuclear-
thermal power. That would give you a lot of speed very rapidly. 
There are other problems we would have to solve 
technologically. But there are a lot of technologies. Once you 
have started being able to build nuclear reactors and launch 
them safely and get them up there, it opens up a whole plethora 
of other technologies that get more and more exotic and more 
and more exciting.
    Senator Brownback. And I do not mean to belabor the point. 
What I am trying to say and to get to is if we are going to 
continue with an aggressive space program, and we are at a real 
pause point right now in assessing how we are moving forward, 
what it is going to cost and how we get there, but you just 
have no doubt you are going to have to go this nuclear-powered 
route so you have this sort of power and opportunity once you 
are in space. Is that correct?
    Dr. Weiler. I feel very comfortable saying I do not see any 
other--unless somebody comes up with new laws of physics, I do 
not see any way that we are going to have a future 25, 50, 100 
years from now if we do not have the capability of launching 
nuclear reactors into space.
    Senator Brownback. I thank you very much.
    Thank you, gentlemen. And the record will remain open if 
you will seek to add additional thoughts to put forward, and I 
know you will also be answering Senator Nelson's question. I 
appreciate that.
    Call up the second panel. Mr. James Crocker, he is Vice 
President of Civil Space for Lockheed Martin Space Systems 
Company, Space and Strategic Missiles; Mr. Larry Knauer, 
President of Space Propulsion and Russian Operations for Pratt 
& Whitney; Mr. Frank Sietzen, President of Space Transportation 
Association; and Mr. Byron Wood, Vice President and General 
Manager of Rocketdyne Propulsion & Power, a portion of The 
Boeing Company.
    Gentlemen, I am delighted you are joining us here today. We 
will take your full statement into the record. If you would 
like to summarize, that would be acceptable, as well. And I 
appreciate you being willing to join us.
    Mr. Crocker, let's start with you, and we will proceed 
forward.

  STATEMENT OF JAMES H. CROCKER, VICE PRESIDENT, CIVIL SPACE, 
          LOCKHEED MARTIN SPACE AND STRATEGIC MISSILES

    Mr. Crocker. Mr. Chairman, distinguished Members of the 
Senate Science, Technology, and Space Subcommittee, my name is 
Jim Crocker, and I am Vice President of Civil Space for 
Lockheed Martin Space and Strategic Missiles. I am deeply 
grateful for your kind invitation to appear before you today 
and to provide testimony on our future Solar System and deep-
space exploration.
    Mr. Chairman, our Nation is just completing a 5-year 
investment and development period which has resulted in the 
successful inaugural flights of two Evolved Expendable Launch 
Vehicles, or the EELV. The second Atlas V, which was launched 
just 3 weeks ago, was the 65th consecutive successful mission 
for the Atlas launch family of vehicles. And basically, this 
provides our Nation with two robust platforms to ensure access 
to space for important national assets, scientific payloads, 
and commercial satellites.
    So the subject of today's hearing is of vital importance. 
It builds upon these successes in improving our Nation's launch 
capabilities to take us from ground to orbit and basically 
brings attention to the next step, the urgent need to improve 
the propulsion and power systems of the spacecrafts that we 
send into space.
    Today, I would like to focus my testimony on the vital 
importance of Project Prometheus, NASA's nuclear in-space 
propulsion initiative. I was recently helping my son study for 
an eighth-grade science test, and, in looking through his 
science book, I was really, really amazed at the beautiful 
images that you see, here, of Jupiter and its moons, its icy 
moons, Callisto and Ganymede, the beautiful rings of Saturn and 
the moon systems. These are images that our school children now 
see routinely. I was struck by something that all of these 
gorgeous images have in common, and that is each of them was 
taken by a nuclear-powered spacecraft.
    In fact, without nuclear power, in the form of radioisotope 
thermoelectric generators, it would be impossible to obtain 
these images. At these far distances from the sun, as Dr. 
Weiler has pointed out earlier, solar power is impractical. The 
sun is merely another star in the dark skies of space, and only 
a nuclear-powered spacecraft can sail these distant oceans.
    At Lockheed Martin, we are very proud of our pioneering 
history in both nuclear spacecraft as well as planetary 
exploration. As I am sure you are aware, the Viking, Voyager, 
Magellan, Cassini missions, the two recent missions to Mars, 
Mars Global Surveyor and Mars Odyssey, as well as Stardust and 
Genesis, just to name a few, as well as almost half a century 
at Lockheed Martin in pioneering nuclear space exploration. In 
fact, the very first radioisotope power-generation system was 
built just a short distance from here at the Glen L. Martin 
Plant in Middle River, in Baltimore, Maryland. It was first 
launched aboard the SNAP-9a Navy Transit Satellite in 1961. And 
for the last 25 years, Lockheed Martin has provided the nuclear 
systems, which have proven to be safe and reliable. In fact, 
Voyager I is now in its 25th year of operation. Our latest, 
Cassini, is in its 6th year. It will arrive at Saturn on July 
1, 2004.
    While this is an impressive history of reliability and 
safety, the basic technology has barely changed for these 50 
years. It is inadequate for future space exploration. These 
systems provide no more than a few hundred watts, a handful of 
light bulbs. Basically, Project Prometheus offers a 
revolutionary change in this technology. It is still nuclear, 
but we are moving from systems that deliver a few hundred watts 
to systems that can deliver hundreds of thousands of watts. It 
will be a revolutionary change in our ability to operate these 
spacecraft, to operate high-power science instruments, as well 
as the propulsive capability to do revolutionary improvements--
propulsion, power for science instruments, increased bandwidth 
to bring vastly larger amounts of data back to Earth, as well 
as propulsion capabilities that will allow us to do some 
amazing things, which I will talk about in a few minutes.
    Let me give you an example. The New Horizon mission is the 
next NASA mission to the outer planets. It will go to the 
planet Pluto. Pluto, as you know, is the only planet yet to be 
explored in this Solar System. The science instruments will be 
powered with a radioisotope thermoelectric generator. The 
propulsion, however, is state-of-the-art chemical propulsion. 
It will take over a decade for this spacecraft to fly to the 
planet Pluto. And when it gets there, it will be able to fly by 
in a few hours, collect a little science data, give us some 
marvelous images for our students' textbooks about Pluto. 
However, it will not have sufficient propulsive capability, due 
to the use of chemical propulsion, to basically orbit around 
the planet. It will just fly by.
    Contrast that with JIMO, the first nuclear mission. We will 
be able to fly to the planet Jupiter. We will be able to spiral 
into a moon, perhaps Europa. We will use high-powered science 
instruments, perhaps even ice-penetrating radar, to look under 
the ice and perhaps find life that scientists hope might be 
there. And then, after we have done that, we will use this high 
power to return enormous bandwidth back. We will have the 
potential to transmit more data to Earth in the first mission 
than had been collected in the entire history of planetary 
exploration.
    In addition to that, once we finish with the first moon, we 
will power up the propulsion system and move on to the next 
moon, Callisto. And there we will continue to power up the 
propulsion system and move on. So rather than have to wait for 
multiple years for another mission, powering up the propulsion 
system will allow us to move on very rapidly.
    I did a simple calculation, and discovered that over 99 
percent of our Solar System, by volume, cannot be explored 
without nuclear power. What we are talking about today, Mr. 
Chairman, is not whether we will develop new space nuclear-
power systems, but whether we will explore our Solar System; 
because without nuclear power, it is not practical. Much beyond 
the orbit of Mars, the sun becomes so dim that it is incapable 
of powering even the most rudimentary types of scientific 
instruments. We are talking about the need to move forward and 
revolutionize our ability to explore space.
    As we enter the 21st century, we find the Europeans 
launching a mission to Mars, the Japanese launching a mission 
to an asteroid, the Chinese talking about a possible mission to 
the moon, and we find the United States preparing to embark on 
an entirely new journey of exploration. Project Prometheus will 
propel the next generation of American scientists and engineers 
toward discoveries beyond our imagination and provide technical 
benefits to our Nation that go well beyond the exploration of 
the planets and the moons.
    When I help my future grandchildren study for their science 
tests, I hope to read of bold new discoveries in their 
textbooks. And with your support and leadership, Project 
Prometheus will make this possible.
    Mr. Chairman, Members of the Committee, I want to thank you 
again for holding this important hearing today and for asking 
me to participate. I will be glad to respond to any questions 
that you may have.
    Thank you.
    [The prepared statement of Mr. Crocker follows:]

 Prepared Statement of James H. Crocker, Vice President, Civil Space, 
              Lockheed Martin Space and Strategic Missiles
    Mr. Chairman, distinguished members of the Senate Science, 
Technology, and Space Subcommittee, my name is Jim Crocker, Vice 
President of Civil Space, at Lockheed Martin Space & Strategic 
Missiles. Chairman Brownback, I am deeply grateful for your kind 
invitation to appear before your subcommittee and provide testimony 
this afternoon. It is a special privilege for me to appear before you 
today, along with my esteemed colleague Dr. Ed Weiler, Associate 
Administrator for Space Science at NASA, and my industry colleagues on 
the panel. And it is an honor to speak with you on behalf of the 
Lockheed Martin Corporation about the future of Solar System and deep 
space exploration which NASA has envisioned, and which will be made 
possible by NASA's recently announced Project Prometheus in-space 
propulsion initiative.
    Our nation is completing a five-year investment and development 
period, which has resulted in the successful inaugural flights of two 
new Evolved Expendable Launch Vehicle systems (EELV). The second Atlas 
V, launched just three weeks ago, May 13, was the 65th consecutive 
successful mission for the Atlas family of launch vehicles. The United 
States now has two robust platforms ensuring our access to space for 
important national assets, scientific payloads and commercial 
satellites.
    The subject of today's hearing is of vital importance, and it is 
very timely. It builds upon our successes in improving the United 
States' space launch systems that take us from ground to orbit, and it 
brings attention to the next step--the urgent need to improve the 
propulsion and power system capabilities of those important spacecraft 
sent into space.
    At Lockheed Martin, we are continuing to push the frontiers of in-
space propulsion technology, built upon our company's half century of 
experience in space nuclear power systems. Lockheed Martin is extremely 
proud of our partnership with NASA during the past four decades of 
space exploration, and of the important role we have played in 
designing and building components for the vast majority of spacecraft 
that have explored and are continuing to explore our Solar System.
    Today, I would like to focus on the vital importance of Project 
Prometheus, NASA's nuclear in-space propulsion initiative. When we 
envision the future of space exploration and the knowledge that it will 
yield for all mankind, that future will be constrained if new nuclear 
space propulsion and power systems are not developed. We are talking 
about leaping ahead in our ability to explore--on a scale that is 
revolutionary. Project Prometheus will result in next-generation 
technology capabilities. It will be reliable and safe, without 
compromise. It is about the power of space exploration--literally. And 
in many aspects, it will determine the future of our ability to explore 
our universe.
    I was recently helping my son study for an eighth grade science 
test. As I looked through his science book, I marveled at the pictures 
of Jupiter and its icy moons Europa, Ganymede and Callisto; beautiful 
Saturn, its ring system, and moons Titan, Hyperion Mimas and Rhea 
Uranus; and the planet Neptune. I was struck by something that all of 
these images have in common. They were obtained by nuclear powered 
spacecraft. These fantastic pictures that we take for granted in our 
textbooks would not have been possible without nuclear power. At these 
far distances from the sun, solar power is impractical. The sun is 
merely another star in the dark night of space. Only nuclear powered 
spacecraft can sail these distant oceans of space.
    The enormous potential of space propulsion, based on nuclear 
fission, has been recognized since the earliest days of the space 
program. The United States has flown only one system using nuclear 
propulsion in space--the SNAP-10A in 1965. Since the mid-1960s, all 
U.S. activities have concentrated on ground-based, pre-flight 
technology programs, such as NERVA in the 1960s and SP-100 in the 
1980s. NASA recently renewed its interest in nuclear propulsion by 
initiating Project Prometheus, a broad program aimed at near- and long-
term applications of nuclear propulsion. One part of the program 
involves the Jupiter Icy Moons Orbiter (JIMO), a proposed mission to 
perform extensive investigation of Jupiter's icy Galilean moons--
Europa, Ganymede and Callisto. Featuring a nuclear electric propulsion 
system, the JIMO spacecraft will be capable of far more sophisticated 
scientific measurements and data communications than any of today's 
deep space missions.
    At Lockheed Martin, we are proud of our pioneering history in both 
nuclear powered spacecraft and planetary exploration. We have played a 
significant role in every U.S. mission to the planets and moons of our 
solar systems. Those missions include Viking, Voyager, Magellan, 
Cassini, Mars Global Surveyor, 2001 Mars Odyssey, Genesis and Stardust 
to name just a few. For almost half a century, we have been pioneers in 
using nuclear power for space exploration. From the very first 
Radioisotope space power system developed under the Eisenhower Atoms 
for Peace Program in 1959 at the Glen L. Martin plant in Middle River, 
Baltimore, to the first launch of a nuclear powered system SNAP-9a on 
the Navy's Transit Satellite in 1961, we have played an important role. 
We have served as the Nation's supplier of every space nuclear power 
system for the last quarter century. Every one of those systems is safe 
and reliable. The first of these missions, Voyager I, is in its 25th 
year of operation.
    This is an impressive history of reliability and safety, but the 
basic technology has barely changed in almost fifty years and it is 
inadequate for future space exploration. These systems provide no more 
than a few hundred watts of electrical energy to power spacecraft 
systems and scientific instruments, enough to power only a handful of 
light bulbs.
    NASA's Project Prometheus promises a revolutionary increase in 
power and a transformation of our ability to explore our Solar System. 
Prometheus missions will utilize a small, compact 55-gallon drum-sized 
reactor that will supply not just a few hundred watts of power but over 
100,000 watts of power. It will transform the operational and science-
gathering abilities of future spacecraft much like nuclear powered 
submarines have transformed the ability to traverse the seas. Project 
Prometheus will provide revolutionary improvements in a spacecraft's 
capabilities in terms of propulsion, power for science instruments, and 
power for increased bandwidth to bring the data back to Earth.
    For illustration, just six water glasses filled with nuclear fuel 
are able to provide more propulsive energy than in all of the rockets 
that have been launched to date. This amount of fuel can power a 
spacecraft for multiple decades. This much power will enable space 
science undreamed of until Prometheus, and will provide the means to 
transmit staggering amounts of science data back to Earth. Imagine the 
possibilities.
    The New Horizon mission is an important mission being developed by 
NASA today to gather data about the planet Pluto, the only planet not 
yet explored by spacecraft and a high priority mission identified by 
the scientific community in the Decadal Survey. New Horizon uses 
today's state-of-the-art chemical propulsion system. It will fly by 
Pluto after a 15-year journey in space and as it flies by the planet, 
it will have several hours to gather prime science and images of the 
planet's surface. It does not have sufficient propulsion capability to 
enter orbit around Pluto or its moon, Charon.
    Now contrast that with the first Prometheus-enabled mission JIMO, 
the Jupiter Icy Moons Orbiter, which would be launched in 2011. Upon 
arrival at the Jupiter system, the JIMO spacecraft will spiral in to 
its first target--the jovian moon Europa. Using high-resolution science 
instruments, it will photograph the surface and perhaps using high 
power radar, it will probe beneath the ice to the liquid ocean below--
an ocean where scientists hold high hopes that life may thrive. With 
the enormous increase in bandwidth made possible by increased power, 
the spacecraft will be able to transmit to Earth more science data in 
terms of pure volume than has been collected in the history of 
planetary exploration. Then we will power up the propulsion system and 
move to another moon and another and then another, and continue to send 
back the wealth of science data and images that it will acquire during 
each operation.
    Nuclear power in space is the difference.
    I did a simple calculation and found that over 99 percent of our 
solar system by volume cannot be explored without nuclear power. What 
we are talking about today, Mr. Chairman, is not whether we will 
develop new nuclear space power systems--but whether we will explore 
space. Because without nuclear propulsion and power systems developed 
by NASA's Project Prometheus, we cannot truly explore and collect the 
volume of science data that we desire about our solar system much 
beyond Mars. We are talking about the need to move forward and 
revolutionize the ability to explore space.
    Mr. Chairman, Lockheed Martin is engaged with NASA on several 
levels that are of vital national interest. The Nuclear System 
Initiative and Project Prometheus are visionary, their ultimate 
development is essential, and the talent and experience to make them 
reality exists today. Today, we are greatly limited in our ability to 
explore space--even our own planet--because of the limited capabilities 
of spacecraft chemical propulsion systems and solar cell power 
generation systems. What chemical propulsion and solar cell power 
systems allow us to do today, versus what space nuclear power systems 
will enable us to do in the future, is very much like the difference 
between wind-powered Clipper ships versus today's nuclear powered 
submarines. It is the difference between the past and the future.
    Mr. Chairman and members of the Committee, we encourage you to 
strongly support the Nuclear System Initiative and Project Prometheus. 
As NASA has envisioned, Project Prometheus ``includes substantial, 
long-term investments to develop advanced nuclear technologies that 
will expand NASA's toolkit for solar system exploration, and could 
ultimately lead to human voyages to Mars and other destinations 
throughout the solar system.'' As we enter the 21st century, we find 
the Europeans launching a mission to Mars, the Japanese launching a 
mission to an asteroid, the Chinese considering missions to the moon 
and the United States preparing to embark upon an entirely new journey 
of exploration. Project Prometheus will propel the next generation of 
American scientists and engineers toward discoveries beyond imagination 
and provide technological benefits to the Nation that go well beyond 
the exploration of planets and moons. When I help my future 
grandchildren study for their science tests, I hope to see new pictures 
and read of bold new discoveries in their textbooks. With your support 
and leadership, Project Prometheus will make that possible.
    Mr. Chairman and members of the Committee, I want to thank you 
again for holding this important hearing today and for asking me to 
participate in it. I will be glad to respond to any questions you or 
members of the Committee may have.

    Senator Brownback. Thank you, Mr. Crocker, very nicely put. 
Mr. Knauer, welcome here.

             STATEMENT OF LARRY KNAUER, PRESIDENT,

            SPACE PROPULSION AND RUSSIAN OPERATIONS,

        PRATT & WHITNEY, UNITED TECHNOLOGIES CORPORATION

    Mr. Knauer. Thank you, Mr. Chairman. It is a pleasure to be 
here today. I am Larry Knauer, President of Pratt & Whitney's 
Space Propulsion and Russian Operations.
    Pratt & Whitney is a division of United Technologies 
Corporation. UTC is a high technology corporation delivering 
products and services in aerospace and building systems 
throughout the world. In addition to Pratt & Whitney, UTC's 
companies include Carrier, Otis, UTC Fuel Cells, Hamilton 
Sundstrand, and Sikorsky.
    I am, indeed, pleased to be here today to speak for NASA's 
bold new adventure into in-space propulsion with Project 
Prometheus.
    Over the last 40 years, as has been talked about, there has 
been little advancement in the area of in-space propulsion 
systems--chemical propulsion to get us to orbit, mostly 
chemical propulsion to get us around orbit, and some electric 
propulsion to do some transit and stationkeeping in orbit. That 
capability gives us a certain ability to meet certain mission 
requirements and certain needs.
    The in-space propulsion marketplace is a relatively small 
market, about $150 million total a year in in-space propulsion 
in the U.S. for all the satellites and NASA missions, et 
cetera. With that, there has been very little investment, 
obviously. From a like nature, at 6 percent, that is roughly 
$10 million a year that the company would invest in this area.
    Without some investment to continue and provide expansion 
of that technology, it is unlikely that there is a motive to do 
so. Non-U.S. companies have been funded to expand that 
capability and, in some cases, have surpassed U.S. capability 
in in-space propulsion.
    The benefits of in-space propulsion have been demonstrated 
for advanced electric propulsion systems. It would allow us, as 
demonstrated with ion propulsion systems in current spacecraft, 
to save thousands of pounds of payload or extend the life of a 
spacecraft.
    The issue with bringing new technologies to the marketplace 
is, quite often, a cost-benefit ratio. To bring a new 
technology to the satellite industry, the commercial satellite 
industry, requires, obviously, for you to overcome the 
insurance-cost issues. Today's marketplace, for us to bring a 
new technology--for example, a $1 million new electric 
propulsion system to a satellite company--may cost the company 
that is launching the satellite 20 million in insurance costs 
alone. With that kind of cost differential, the benefit ratio 
of the new technologies has not been able to enter the 
marketplace. Therefore, it is important that we have 
initiatives like Project Prometheus, to give us those initial 
places to prove out these technologies so they can be used in 
other commercial applications for the future.
    As I said earlier, the benefits of new propulsion have been 
demonstrated quite successfully using solar systems--solar-
cell-driven systems that run ion thrusters today. Those systems 
are relatively low thrust and provide good capability for 
stationkeeping, but not much else.
    Advances in propulsion systems, such as Hall effect 
thrusters, MEPs, and other systems, have demonstrated the 
ability to satisfy, with the same 25-kilowatt power systems 
available today with solar systems, ability to shorten 
durations or to decrease the mass load substantially to the 
satellite by some 2,000 pounds.
    Today, if you tried to move a satellite using today's 
electric-ion propulsion, from low Earth to its final 
geosynchronous position, it might take 6 months. With the newer 
technologies, the Hall effect thrusters, MEPs, those kinds of 
thrusters, it would take, like, 60 days with today's systems. 
Now, keep in mind that is moving a satellite roughly 20,000 
miles. As you heard earlier, we are talking about needing to 
move 40-million-plus miles.
    So thrust, as well as ISP, are both very, very important. 
And what Project Prometheus will work is increasing the power 
level, which allows you to raise the thrust level. Today, 
proportional, 25 kilowatts to 100 kilowatts, would give you 
four times the thrust capability. That gives you four times 
acceleration, with today's systems. That will be good for 
interplanetary transition of unoccupied spacecraft. So robotic 
missions to the outer planets, it would be perfect. You need 
100 kilowatts of power when you get there for the science 
missions. You can take advantage of that power along the way 
and accelerate the mission and get there in a quicker time 
period.
    In the future, though, you want to be able to transition at 
a quicker pace than the straight electric-propulsion systems 
that we are talking about today. So in addition to the nuclear 
work being done on Prometheus, things like the VASIMR Project, 
which we heard about earlier, are needed to extend the next 
generation. Direct thermal, bimodal-type propulsion systems, 
need to be explored so that the excess heat that you heard 
about earlier that needs to be radiated to the atmosphere--or, 
to the--I am sorry, into space--can be used to generate thrust 
along the way, thereby accelerating the mission.
    So it is a complex interrelationship between mass, thrust, 
and ISP. Efficiency is great; but if it does not move you very 
fast, you can be really efficient but not get to where you want 
to get to in a timely manner.
    So Prometheus is a great first step, moving us in the 
direction we need to go. We need the power levels when we get 
to the destinations to do the type of science missions we 
should do, and it gives us the ability to do the demonstration 
of the electric systems we need for the long-duration flights.
    So we strongly support NASA's initiative and endeavors to 
go make that happen. We believe it is time to do that. We 
support the comments made by my friends at Lockheed, as well as 
NASA, on the importance of human space and human space 
transportation, as well as exploration, and how important that 
is to all of us and our school children and in creating the 
emphasis of importance of science and exploration to all of us.
    We appreciate your support, and I look forward to 
supporting you as we go forward.
    [The prepared statement of Mr. Knauer follows:]

 Prepared Statement of Larry Knauer, President of Space Propulsion and 
  Russian Operations, Pratt & Whitney, United Technologies Corporation
    Mr. Chairman, Senator Breaux and other members of the Subcommittee, 
I am Larry Knauer, President of Pratt & Whitney's Space Propulsion and 
Russian Operations in West Palm Beach, Florida. I want to thank you for 
the opportunity to testify today on the issue of space propulsion.
    As you are aware, Pratt & Whitney is a division of United 
Technologies Corporation. UTC provides high-technology products and 
services to the aerospace and building systems industries throughout 
the world. In addition to Pratt & Whitney, UTC's industry-leading 
companies are Carrier, Otis, UTC Fuel Cells, Hamilton Sundstrand and 
Sikorsky.
Current Investment in Space Propulsion
    Our estimates of this market, over the last 20 years, indicate that 
domestic annual sales of in-space propulsion have been less than $150 
million per year. Also, industry and government respectively have 
invested less than $10 million per year, and only a small amount of 
government funding has been available to industry through contracts. As 
a result, the non-U.S. space industry has overtaken and in some cases 
surpassed the United States in the area of in-space propulsion.
    Every satellite launched utilizes several types of in-space 
propulsion and the benefits of improvements are great. The introduction 
of electric propulsion to satellites could allow over 2,000 pounds of 
extra payload, or years of extra life on station.
    Although the potential pay-off for in-space propulsion technology 
is great, one major reason for low industry investment has been 
insurance cost, which is typically prohibitively high in the risk-
averse space industry. In some cases the insurance premium can be an 
additional 20 percent of the total launch cost, if it can be obtained 
at all. A change in a $1M to $3M propulsion system can add enough risk 
to raise the insurance premium as much as $20M. Therefore, it is 
important that new in-space propulsion systems be initially proven on 
government systems. After the technology has been successfully flight 
proven, incorporation into commercial systems can proceed with 
acceptable insurance premiums.
Need for a Robust Space Propulsion Program
    A robust in-space propulsion technology program will ready the 
technologies for transition into the commercial marketplace and achieve 
revolutionary improvements in space exploration capability. As a 
nation, we will continue our exploration of the solar system, and 
eventually undertake manned exploration of Mars, when the time and 
technology are right. During this process, in-space propulsion will 
mature and transition to the commercial market. NASA has recently 
reaffirmed the historical reality that propulsion breakthroughs have 
been and continue to be the basis for revolutionary improvements in 
exploration capability.
    To date, the benefits of electric in-space propulsion have been 
demonstrated on several spacecraft, but have been limited by the power 
generated to drive them. The maximum power available has been less than 
25 KWe and gives a spacecraft great station keeping weight reduction 
using ion ``ZIP'' thrusters. The thrust levels of these systems are so 
low that station keeping is all they have been able to provide. If you 
attempted to use one of these systems for final orbit circularization 
it would take as long as 6 months to get the satellite to its final 
destination. Recent improvement in Hall effect thrusters, HET's, have 
shown the potential to reduce the transfer time to 60 days with 25 KWe 
power sources. Other technology breakthroughs, which are in development 
could significantly improve this capability. Raising an orbit some 
20,000 miles with today's on orbit electric propulsion takes months; 
40,000,000 miles to our nearest planetary neighbor requires even more 
efficiency and thrust.
    Nuclear electric propulsion, as embodied by project Prometheus, is 
a bold and courageous step in expanding our exploration capability. 
Project Prometheus will develop the 100 KWe power system, including the 
reactor, space radiator system and power electric thrusters needed for 
small payload delivery to the outer planets. Once on station (not just 
flying by), the same power system will enable robust and long-term 
science vastly expanding our knowledge and enabling us to bring the 
wonders of the solar system back to planet Earth.
    Beyond Prometheus, as a nation we should consider continued 
investment in in-space propulsion to significantly reduce the cost and 
risk of manned Mars exploration. Small investments toward this end can 
provide avenues to reduce the cost by 30 to 50 percent, when we begin 
this exciting journey. As with Prometheus, these investments will also 
provide high leverage in-space commercial benefits along the way.
Desired Features of Future Systems
    Technical features of future in-space propulsion systems include:

        High specific impulse (i.e., fuel mileage) reduces the fuel 
        mass of the vehicle departing earth orbit.

    <bullet> This reduces requirements for the earth to orbit launcher, 
            therefore reducing launch costs.

    <bullet> The lighter earth departure mass is also much easier to 
            accelerate to its final destination.

        Thrust:

    <bullet> Acceleration depends mostly on thrust and is needed to 
            reduce trip time to distant destinations.

    <bullet> Passive propulsion systems, such as solar sails, lack this 
            key feature and are also dependent upon the direction of 
            the ``solar-wind'' and are therefore limited in their 
            application.

        Optimized combination of thrust and specific impulse:

    <bullet> Historically, weight growth and cost growth have been 
            problems for new space systems.

    <bullet> The initial system weight must be kept low on a percentage 
            basis such that small weight growth, inevitable during 
            development, does not negate the payload capability of the 
            system.

    <bullet> The complexity must be minimized to enable reliable 
            deployment and operation of the system.
Challenges for In-Space Propulsion
    Considering these guidelines, expanding Prometheus capability for 
manned Mars exploration will provide additional in-space propulsion 
challenges. Although the power levels needed for the astronauts' 
welfare and safety remains at 100 KWe or below, the power levels needed 
for the electric propulsion system will grow by one or two orders of 
magnitude, due to the heavier increased payloads. While the scaling of 
the Prometheus reactor would be relatively straightforward, as 
demonstrated by our Navy ship and submarine experience, the scaling of 
the supporting subsystems will present major challenges. Of particular 
concern are the scaling and space logistics involved in the launching 
and deployment of the space radiator system. This massive subsystem is 
needed to reject the excess heat of the electrical power conversion 
system. Also, scaling of Prometheus will limit the initial reliability 
to be that of a ``new'' system, as the tried-and-true power conversion 
systems and electric thrusters must be reinvented in a much larger 
size.
Additional In-Space Propulsion Ideas/Technologies
    An alternative to rejecting the excess system heat for the more 
demanding manned Mars missions would be to convert this ``lost'' energy 
into direct thermal thrust using a bimodal nuclear propulsion system. A 
bimodal nuclear propulsion system leverages the best of current 
propulsion systems in addition to the systems to be matured during 
project Prometheus. A bimodal nuclear reactor would be configured to 
provide 15Klb of direct thermal thrust during earth departure then 
reduce the power level to the 100 KWe level needed for the astronauts' 
welfare and safety during the mission and to support the electric 
propulsion needs after earth departure. This approach would avoid the 
need to develop space radiator systems, which are potentially 
unmanageable. It would also allow the direct use of the 100 KWe power 
conversion and electric thruster systems that will be flight proven 
during Prometheus operation.
    Bimodal systems were seriously considered to satisfy the nearer 
term exploration missions, but suffered from a lack of maturity in area 
of the required reactor fuels. Although fuel solutions exist, based on 
breakthrough fuel development near the end of the 1960s NERVA nuclear 
propulsion program, the cost and schedule risks to the Prometheus 
program were considered to be too high.
    In order for a bimodal system to be considered for the Mars 
exploration mission a relatively low cost fuels development program 
could be pursued, in parallel with the Prometheus program, to increase 
its maturity.
    Additional in-space propulsion technologies needed for Mars 
exploration are those that support in-situ propellant utilization. 
Lewis and Clark would not have completed their mission if they had to 
carry water for themselves and their propulsion (horses) for the whole 
trip. They knew water would be available along the way.
    Similarly, in-situ propulsion systems for robust space exploration 
should be aggressively developed. In-situ propulsion systems are 
designed to use earth-return propellants acquired after reaching the 
desired destination. This approach avoids the need to carry earth-
return-propellants into and then out of earth orbit to the desired 
destination. Recent strong indications of water on both the moon and 
Mars elevate this in-situ approach from the category of science fiction 
to the category of science reality.
    Of particular interest is methane/oxygen propulsion technology. 
Methane (CH<INF>4</INF>) and oxygen (O<INF>2</INF>) can be manufactured 
from the water (H<INF>2</INF>O) and the carbon dioxide (CO<INF>2</INF>) 
atmosphere of Mars. Full utilization of this approach can reduce the 
required mission mass and therefore the cost by over fifty percent, 
once again highlighting the high payoff that can be reaped from in-
space propulsion improvements.
Conclusion
    This committee's interest in in-space propulsion technologies will 
encourage government and industry cooperation in this field. Government 
and private sector commitments of investment and resources will 
accelerate the development of technical advances, while reducing the 
cost and risk of deployment. Future space explorers will travel on 
systems developed and funded as a result of decisions made by our 
government and industry leaders today. Pratt & Whitney is ready to be a 
part of those decisions and those commitments.

    Senator Brownback. Thank you, Mr. Knauer. Mr. Sietzen, 
thank you for joining us today.

          STATEMENT OF FRANK SIETZEN, JR., PRESIDENT, 
                SPACE TRANSPORTATION ASSOCIATION

    Mr. Sietzen. Senator Brownback, on behalf of the Space 
Transportation Association, I would like to express my thanks 
and appreciation for this opportunity to come before you today 
to discuss the future of the U.S. space-propulsion industry and 
leadership in this crucial field.
    Space propulsion, be it in boosters, upper stages, or in-
space systems, forms the backbone of U.S. access to space. The 
central objective of our space program and policy should be 
assured low-cost access to space, for every goal that the 
President and the Congress may set for the space program will 
require it.
    A robust space-propulsion industry makes such access 
possible. To reinvigorate both the industry and space launch, 
the Space Transportation Association urges the establishment of 
a series of strategic goals, comprehensive partnerships, and 
technology investments. Although STA is the only trade 
association solely focused on launch and propulsion issues, we 
are not alone in urging this national priority. John Douglas, 
of the Aerospace Industry's Association, the U.S. Chamber of 
Commerce, the American Institute of Aeronautics and 
Astronautics, and other groups, have called for new space 
transportation polices and initiatives. To quote Robert Walker, 
the Chair of last year's U.S. Aerospace Commission, ``It is 
time for a call to arms.''
    To set us on a renewed course for access to space, STA 
recommends, for consideration, the following steps. First, the 
establishment of new strategic goals for breakthrough leap-
ahead technologies that both challenge the industry and improve 
U.S. access to space for all civil, military, and commercial 
users. These improvements should include Earth-to-orbit, on-
orbit, and in-space propulsion systems. Every technological 
path, from chemical rockets to antimatter propulsion, should be 
investigated. These breakthrough technological goals should 
yield systems that are of an order of magnitude cheaper and 
more reliable than existing designs.
    Second, it should be a goal of this strategic plan for 
space propulsion to substantially reduce the transit time to 
send humans and cargoes from Earth orbit to other destinations 
in the solar system.
    Third, the U.S. should establish a long-term partnership 
between NASA and the Defense Department to fund research to 
support our strategic objectives. Such research should 
strengthen the U.S. industrial base, as well as create a family 
of space systems that can be widely exploited. As one element 
of such a sustainment program, the Integrated High Payoff 
Rocket Propulsion Technology Initiative, also known as IHPRPT, 
should become a national priority and be fully funded annually.
    Fourth, NASA, the Air Force, and DARPA should jointly 
flight-demonstrate and, thus, mature the technologies needed 
for future advanced space launch vehicles and engines.
    In summary, the most effective way Congress and the 
Administration can assist the launch and propulsion industry 
would be through clear strategic goals and priorities, 
consistent and sustained funding for research, and a continuous 
dialogue with industry leaders and their representatives.
    I would like to close with a historical analogy, if I may. 
When President Kennedy came before the Congress, some 42 years 
ago this spring, to propose the lunar landing goal, this 
country had a total of 15 minutes and 20 seconds of experience 
in human space flight. But it did have a series of advanced 
propulsion systems in upper stages in development, including 
the Saturn C-1 rocket that was the first of the Saturns to fly. 
All of these propulsion systems were not developed by NASA. 
They were created by the Army and the Air Force as part of a 
strategic development program for space propulsion. Without 
those engines and stages, with names like H-1, F-1, J-2, RL-10, 
Agena, and Centaur--I think I have gotten them all right, 
there, Byron--Kennedy's goal could not have been achieved.
    Just as those who came before us had the vision and 
determination to develop advanced space systems, so should we, 
in our own time; for such systems will not only open up access 
to space for ourselves, our children and theirs, but for the 
unborn generations of young Americans yet to come. That can 
serve not only as our vision, but our destiny, as well.
    Again, I am very grateful for the opportunity to come 
before you today and look forward to attempting to answer any 
of your questions. But I give you a cautionary tale, I am the 
only non-rocket-scientist in front of you today.
    [The prepared statement of Mr. Sietzen follows:]

         Prepared Statement of Frank Sietzen, Jr., President, 
                    Space Transportation Association
    Chairman Brownback, Senator Breaux, and members of the 
Subcommittee:

    On behalf of the Space Transportation Association, I would like to 
express my thanks and appreciation for this opportunity to come before 
you today to discuss the future of the U.S. space propulsion industry 
and leadership in this critical national field of endeavor.
    Space propulsion, be it in boosters, upper stages, or in-space 
systems, is the backbone of U.S. access to space.
    The objective of U.S. space transportation policy should be to 
assure that access to space for all U.S. civil, military, and 
commercial users. The STA believes that this can be accomplished by 
development and operation of a robust combination of advanced reusable 
and expendable space launch systems, engines, and propulsion 
technologies. Such systems should share a maximum of common user 
interfaces, and be designed to substantially reduce the cost and 
complexity of space launch over today's existing systems, while 
increasing safety and reliability in operations. We at STA believe that 
assured access to space via this combination of systems is essential to 
the national security and economic interests of the United States. To 
advance this objective, STA recommends for consideration the following:

        To reinvigorate the U.S. space propulsion and launch technology 
        industrial base, a series of strategic goals for specific 
        breakthrough, leap-ahead technologies should be implemented. 
        These goals should both challenge the industry and provide a 
        basis for future space flight programs in near-Earth space, 
        beyond earth orbit, and for flight by both robotic probes and 
        humans throughout the Solar System.

    As suggested by the U.S. Aerospace Commission, such goals could 
include:

  <bullet> The capability to process and launch payloads upon demand, 
        driven by national security or special civil space 
        developments.

  <bullet> Breakthrough propulsion systems for both ascent and in-orbit 
        operations that are of an order of magnitude cheaper and more 
        reliable than existing expendable or reusable rocket engines 
        and thrusters.

  <bullet> Development of space launch facilities that reduce launch 
        preparation time and increase launch opportunities for a 
        variety of payloads.

  <bullet> Substantially reduce the transit time to send missions from 
        Earth orbit to other destinations in the Solar System.

    The United States should commit to a continuous, long-term 
development program to produce next-generation advanced space 
propulsion systems for sub-orbital, Earth-to-orbit, and on-orbit flight 
operations. Such a program should be fully funded annually, include 
NASA, Defense Department and commercial requirements, and supplement 
existing programs such as SLI, NAI and IHPRPT. Such a development 
program should strengthen the U.S. industrial base as well as reduce 
cost, risk, and increase the reliability of space propulsion systems 
and technologies in the 21st Century.
    As one element of such a sustained program, the Integrated High 
Payoff Rocket Technology Program (IHPRPT) should be fully funded. The 
IHPRPT project, begun in FY94, set as its main objective a series of 
specific performance improvements in both liquid and solid rocket 
propulsion. The overarching goal was to achieve a doubling of rocket 
performance by 2010. The program was constructed to be a partnership 
that included NASA, the Air Force, Army, Navy, and industry. To date, 
however, funding targets have only been achieved by the Air Force and 
industry. To accomplish its many technological goals, IHPRPT must be 
given both full funding as originally proposed when the program began, 
as well as a priority within the U.S. civil and military space research 
budgets. But IHPRPT should be only one element of a robust and 
sustained program to develop advanced launch and propulsion systems.
    The USAF and DARPA should be directed to work with NASA to jointly 
demonstrate and mature the technologies required for any advanced 
launch vehicles developed through either the SLI or NAI programs. These 
technology risk reduction efforts should be addressed in an incremental 
fashion to minimize cost.
    The USAF, FAA AST, and state governments should be tasked to 
develop a plan for the future direction and control of national space 
launch ranges. This plan should be consistent with the recommendations 
of the 2000 Defense Science Board Task Force report on Air Force Space 
Launch Facilities; specifically:

  A.  Development of a vision for national space launch ranges

  B.  An improved operational approach for national launch sites

  C.  Centralization of planning and operational functions for space 
        launch ranges

  D.  Establish an enhanced public-private partnership for space launch 
        ranges

  E.  Development of a long-range plan for technology enhancements and 
        architecture configurations for space launch ranges.

    In summary, the most effective way the Congress and the 
administration can assist the space launch and propulsion industries 
would be through clear national space policy goals and objectives, 
consistent and adequate funding for research and development, and a 
regular dialog with industry leaders and their representatives.
    My thanks for the opportunity to come before you today, and I look 
forward to answering any questions that you may have.

    Senator Brownback. Well, this is rocket science we are 
talking about.
    You know, I am sitting up here, and I am just stunned to 
think Kennedy made the proposal, the call, to go to the Moon 42 
years ago. That is almost as old as I am. And we are using the 
same tech--that is a bit of a frustration.
    Mr. Wood, thank you for joining us here today, and I look 
forward to your testimony.

            STATEMENT OF BYRON WOOD, VICE PRESIDENT

             AND GENERAL MANAGER, BOEING ROCKETDYNE

                      PROPULSION AND POWER

    Mr. Wood. Thank you, Mr. Chairman.
    Please accept my written statement for the record.
    Senator Brownback. It is.
    Mr. Wood. I am Byron Wood, Vice President and General 
Manager of Boeing Rocketdyne. I would like to thank you for 
taking time out of your busy schedule to look into a matter 
that I consider to have potentially dire consequences for the 
national security of the United States and the future of our 
civil space program. That is the failing health of the 
propulsion industry in the United States.
    America is on the verge of losing the capability to develop 
and produce liquid-propulsion rocket systems. And once gone, 
this will be a very difficult capability to reconstitute.
    For over 50 years, Rocketdyne has been a world leader in 
rocket propulsion systems and space power systems. We have over 
1,500 launches to our credit. I, personally, have spent the 
better part of my career working in this area, and I have never 
seen the industry in a more precarious position.
    If you refer to my first attached chart, you will see the 
erosion trend of our human capital. We are falling below the 
critical mass of skills needed to meet national security and 
civil space goals when we are called upon to do so in the 
future.
    What has caused this dire situation? There are many 
contributing causes. The crash of the commercial launch market 
is one, and the market left has been seized by foreign 
competition.
    If you refer to my second chart, you will see that on a 
rocket-engine basis, instead of launch basis, the United States 
accounts for only 14 percent of the engine market. The Russians 
account for over 60 percent, followed by the Europeans, at 18 
percent. America is rapidly losing its leadership in space.
    In reference to my third chart, America needs a vision for 
the future of all space. Great nations do great things. What 
are the great things in the future for America?
    China will semd a man into orbit, maybe this year. China 
has openly stated they are aiming for the moon in the not-too-
distant future. What is the future in space for the United 
States?
    One area where NASA has developed a vision is for the 
exploration of the Solar System. Project Prometheus will 
develop advanced radioisotope systems for Mars landers and 
nuclear-power systems to fly on the Jupiter Icy Moons Orbiter, 
JIMO. This vision is exactly what this country and our space 
industry needs.
    I commend Administrator O'Keefe for the high priority he 
has placed on this program and the staunch support he continues 
to give it as NASA recovers from the Columbia tragedy. I also 
commend the Members of this Congress for having the vision to 
add funding to the NASA 2003 appropriations bill to jumpstart 
the JIMO program. This is the kind of inspiration we need in 
the space program.
    But where is the vision for space, including the vicinity 
of our own planet? We must get the shuttle flying again. There 
is no other way to complete the space station, which is our 
gateway to move beyond low-Earth orbit. But where do we go from 
there?
    NASA is funding propulsion technologies under the Next 
Generation Launch Technology Program. And the Air Force is 
funding activities under the Integrated High Payoff Rocket 
Propulsion Technology Program. But both of these programs are 
seriously underfunded.
    Secretary Rumsfeld led a Commission prior to his current 
post which identified many areas where the DOD needed to move 
forward to ensure they maintained the high ground of space. Dr. 
Sega, the Director of Defense Research and Engineering, has 
proposed a national aerospace initiative. These efforts 
represent a vision of the future for military space. But The 
Armed Services have been slow to embrace them and loathe to 
invest in them. This is not the way America maintains its 
leadership in space.
    So what can the Congress do to help avert this crisis? 
First, continue your strong support for Project Prometheus. 
This is the kind of activity that inspires not just our current 
work force, but our workforce of the future. Second, we need a 
national debate on the future of our space programs, both civil 
and military. We need to clearly identify where we want to go 
and move out.
    America is a great country and can do anything it wants to 
do once it makes up its mind to do it. Unfortunately, we have a 
problem making up our minds. Propulsion is the long pole in the 
tent for any new space program. And while we debate our 
direction, we need to maintain our competency for future 
propulsion needs before we lose it completely.
    To achieve this, I recommend the Committee endorse an 
increased budget for the NASA Next Generation Launch Technology 
Program, which must be expanded to provide a complete cadre of 
rocket technologies and rocket-systems development. Also, while 
I realize it is not within the jurisdiction of this Committee, 
I urge you to work with your colleagues to see that the 
National Aerospace Initiative receives the funding necessary to 
proceed as Dr. Sega envisions it.
    Dr. Wernher von Braun was fond of saying, ``Who will 
control the oceans of space?'' I have been disappointed in my 
career, in that we had Americans walking on the moon in the 
1960s, but have not seen them return or go beyond. Now I 
believe I will see people again on the moon, but they will 
speak Chinese. Where will America be when this happens?
    Thank you.
    [The prepared statement of Mr. Wood follows:]

 Prepared Statement of Byron Wood, Vice President and General Manager, 
                 Boeing Rocketdyne Propulsion and Power
    Mr. Chairman, members of the Subcommittee, I would like to thank 
you for taking time from your busy schedules to look into a matter that 
I consider to have potentially dire consequences for the national 
security of the United States and the future of our civil space 
program--that is the failing health of the propulsion industry in the 
United States. America is on the verge of losing the capability to 
develop and produce liquid propulsion rocket systems--and, once gone, 
this will be a very difficult capability to re-constitute.
    For over 50 years, Rocketdyne has been a world leader in liquid 
rocket propulsion systems and space power systems. We have over 1,500 
launches to our credit with our engines for the Space Shuttle, Delta, 
and Atlas systems, and their predecessors, and I, personally, have 
spent the better part of my career, working in this area. I have never 
seen the industry in a more precarious position. We have three major 
liquid propulsion companies in the United States, and not enough work 
to keep even one healthy. Frankly, all three of us are on the verge of 
going out of business. If you refer to the first chart I have attached, 
you will see the erosion of our human capital over the last several 
years at Rocketdyne. This is typical of the entire industry. We are 
falling below the critical mass of skills needed to meet national 
security and civil space goals when we are called upon to do so in the 
future.
    What has caused this dire situation? There are many contributing 
causes. The crash of the commercial launch market due to oversupply of 
on orbit telecommunications satellites has been a major contributor. 
And the market that is left has been seized by foreign competition.
    If you refer to my second chart, you will see that, on an engine 
basis instead of a launch basis, the United States accounts for only 14 
percent of the launch market. The Russians account for over 60 percent, 
followed by the Europeans.
    America is rapidly losing its leadership in space.
    In reference to my third chart, America has lost its vision for the 
future of space. Great nations do great things--What are the great 
things in the future forAmerica?
    China plans to orbit a human, maybe this year. China has openly 
stated that they are aiming for the moon, in the not too distant 
future. What is the future in space for the United States?
    One area where NASA has developed a great vision is in the 
exploration of the outer planets. Project Prometheus, to develop 
advanced radioisotope systems to fly first on the Mars 2009 lander, and 
to develop a nuclear propulsion system to fly first on the Jupiter Icy 
Moons Orbiter (JIMO), represents the kind of vision in taking a great 
leap forward that is exactly what this country, and our space industry, 
needs. The nuclear propulsion system will allow exploratory probes to 
actually enter orbit around distant bodies, allowing the science 
community the time they need to do detailed exploration, instead of 
grabbing what information they can get from a rapid fly-by. The high 
power levels, once there, will allow whole new areas of scientific 
exploration to open up, such as active radar investigations, and will 
also allow significantly higher levels of data to be transmitted to 
Earth. The isotope power systems will allow the exploratory rover on 
the Mars surface to operate for years, as opposed to the weeks achieved 
by its predecessor powered by solar cells.
    I commend Administrator O'Keefe for the high priority he has placed 
on this program, and the staunch support he continues to give it as 
NASA tries to recover from the Columbia tragedy. I also commend the 
Members of this Congress for having the vision to add funding to NASA's 
FY 2003 Appropriation Bill to jump start the JIMO program. This is the 
kind of inspiration we need in the space program. This inspires people 
of all ages. I have retirees knocking on my door wanting to come back 
to work on this program. And it is also visionary programs like this 
that will provide the inspiration for our young people to enter the 
science and engineering fields.
    But where is the vision for the U.S. for space in the vicinity of 
our own planet? We must get the shuttle flying again, there is no other 
way to complete the space station, which is our gateway to move beyond 
low earth orbit. But where do we go from there?
    NASA is funding propulsion technologies for next generation 
vehicles under their Next Generation Launch Technology (NGLT) program, 
and the Air Force is funding similar activities under the Integrated 
High Payoff Rocket Propulsion Technology (IHPRPT) Program, but both of 
these programs are seriously underfunded. DOD Secretary Donald Rumsfeld 
led a commission prior to his current post which identified many areas 
where DOD needed to move forward to ensure they maintained the high 
ground of space. Dr. Ron Sega, the Director of Defense Research and 
Engineering (DDRE), has proposed the National Aerospace Initiative. 
Both of these efforts represent a vision of the future for military 
space, but the services have been slow to embrace these visions, and 
loathe to invest in them. The situation has become so serious, that 
your fellow Senators on the Armed Services Committee, in their recent 
report accompanying the FY04 Defense Authorization Bill, noted that the 
USAF requested more funding for biological research than for propulsion 
research, which the Committee noted they felt should be a high priority 
within the Air Force.
    This is not the way America maintains its leadership in space.
    So, what can the Congress be doing to help avert this crisis?
    First--continue your strong support for Project Prometheus. This is 
the kind of activity that inspires not just our current workforce, but 
our workforce of the future. This will take us to new frontiers in 
space.
    Second--continue the national debate on the future of our space 
programs, both civil and military. We need to clearly identify where we 
want to go and move out. America is a great country and can do anything 
it wants to do, once it makes up its mind to do it, and that is where 
we have a problem. Propulsion is usually the long pole in the tent for 
any new space programs. While we debate our direction, we need to 
maintain our competency for future propulsion needs, before we lose it 
completely.
    To achieve this, I recommend that the Committee endorse increased 
budget for the NASA Next Generation Launch Technology program, which 
must be expanded to provide a complete cadre of technologies and 
systems development for a new reusable space transportation system.
    Also, while I realize it is not within the jurisdiction of this 
committee, I urge you to work with your colleagues to see that the 
Defense Department's National Aerospace Initiative receives the funding 
necessary to proceed as Dr. Sega envisions it, which is significantly 
more than requested in the FY04 budget request.
    Dr. Werner von Braun was fond of saying: ``Who will control the 
oceans of space?'' I have been somewhat disappointed in my career in 
that we had Americans walking on the moon in the 1960s, but I will not 
live to see people return to the moon or go beyond. Now, I believe I 
will see people on the moon in my lifetime, but they will speak 
Chinese. Where will America be when this happens?
    Thank you.

    Senator Brownback. Well put. Starkly put.
    Mr. Wood, let me start with you, if I could. You present 
very striking numbers. The United States accounts for only 14 
percent of the launch market. Russia accounts for 60 percent, 
followed by the Europeans. Why? Why are others more competitive 
at this than we are?
    Mr. Wood. Well, the Russians, of course, bring a broad 
background and many propulsion systems left from the cold war. 
And because of the low cost of developing and pursuing and 
manufacturing propulsion systems in the former Soviet Union, 
they are able to attract the world market at low cost. And the 
United States has not kept pace in all of this. And so, 
consequently, they have continued and will continue to dominate 
the industry, in terms of rocket propulsion systems sold, 
rocket propulsion systems developed, and where we are in the 
future.
    Senator Brownback. So rocket propulsion systems become a 
commodity, and they are the least-cost producer? Is that what I 
am to----
    Mr. Wood. That is correct.
    Senator Brownback. By some significant factor, is it 
substantially cheaper to launch out of Russia than it is the 
United States or Europe?
    Mr. Wood. Not significantly, necessarily, to launch, but 
the cost of the propulsion systems themselves, because of the 
fact that a dollar in Russia buys a whole lot more than a 
dollar does in the United States, that they continue to enjoy 
the higher ground with respect to producing that hardware.
    Senator Brownback. What will it take to change this and to 
get the U.S. share of the market growing again?
    Mr. Wood. As I said in my testimony, I think it is 
essential that the U.S. Government invest at a rate that is 
commensurate with developing rocket propulsion systems that 
will match that challenge.
    Senator Brownback. But what we are talking about here, are 
chemical launch systems that the Russians are using now.
    Mr. Wood. That is correct.
    Senator Brownback. And you were talking mostly about losing 
the industry, we need a national aerospace initiative, support 
for Project Prometheus, which is in-space propulsion systems.
    Mr. Wood. Well, the one thing we have to remember, Mr. 
Chairman, is that we certainly need the nuclear capability for 
Prometheus-type missions. We need to explore the Solar System 
and explore the universe. But the capability to do that is more 
about power than it is about propulsion. And because it is more 
about power, it is a lot to do with the up-mass, to put it----
    Senator Brownback. OK.
    Mr. Wood.--outside the Earth's gravitational field in the 
first place. OK, we may have a lot of aspirations to go many 
places in the Solar System, but if we do not have the 
capability to take it to space first, and we do not have the 
capability to support all of the other missions in which liquid 
propulsion does play a very significant role, we take a second-
place position in the world.
    Senator Brownback. Mr. Wood, and I want to ask the rest of 
the panelists this, have we under-invested in our future in 
aerospace? Is that the root of the problem, and not being 
critical of Republicans, Democrats, anything, but have we just, 
as a country, under-invested in space programs to maintain a 
leadership and a forward vision?
    Mr. Wood. Absolutely. I could not say it any clearer than 
as you state.
    Senator Brownback. By a substantial factor have we under-
invested?
    Mr. Wood. For example, in the last few years if you look at 
what has been invested in air-breathing jet engines versus 
rocket engines, it is a factor of three greater. And recognize 
that rocket engines operate in more extreme environments over a 
much broader range of requirements and capabilities and demands 
and so on and so forth. So just simple mathematics comparing 
other propulsion systems that we have today says that we are 
under-invested by at least a factor of three.
    Senator Brownback. What if we had adequately invested--and 
this is a hypothetical and there may not be an easy answer at 
all--but what if we had adequately invested? Where would we be, 
or could we be, now in the space program?
    Mr. Wood. Well, I think it is a matter of having invested 
across the total spectrum of the requirements for propulsing, 
including nuclear. As Dr. Weiler mentioned in his testimony, we 
sort of went away from investing in nuclear kinds of things 
many, many years ago. It actually had a bad name. I think if we 
had stayed with that program, as we had envisioned in the 1980s 
and early 1990s, we may very well have a Prometheus-type probe 
available to fly today and could start that science today. If 
we had commensurately invested in the kinds of propulsion 
systems to launch those payloads in parallel to that, we would 
be in a position of being able to put a high-power nuclear 
electric payload in a trajectory that would take it to 
Jupiter's moons right now.
    Mr. Sietzen. Mr. Chairman, if you look at the two shuttle 
accidents, separated by 17 years apart--the Challenger in 1986, 
Columbia this year--and you look at the launch initiatives that 
took place during that 17 years, you would have begun with the 
X-30 NASP program, which was a very ambitious program begun in 
1986 by President Reagan. It was called the Orient Express. It 
was going to yield a single stage to orbit from a runway 
takeoff into orbit and back again. Millions of dollars were 
invested in that system, both by industry and the government, 
and the program was terminated.
    Next came the DCX, which was going to be a launch vehicle 
for the Brilliant Pebbles Strategic Defense Initiative. 
Millions of dollars were spent on the technology demonstrator. 
At least that vehicle flew in the atmosphere. And because of 
the failure of a $1.50 bolt, the vehicle toppled over and 
exploded. That program was so tightly budgeted, there were no 
additional spare parts, and that program was terminated.
    The X-33 was going to be a single-stage-to-orbit initiative 
in which both the government and industry spent millions of 
dollars. That vehicle got under assembly, began to have 
technological problems, and it, too, was terminated. Same thing 
was for the X-34. Same thing for the X-38 and other programs, 
called ALS and NLS, and space lifter.
    That 17-year period, if you added up all the money that the 
government and industry has spent on failed initiatives and on 
one single approach, you could probably have built a 
replacement vehicle for the shuttle.
    So when you look at recent history, just across 17 years, 
the government has never stabilized and addressed a single 
program through the technological development phase and seen it 
flight tested. The previous NASA administrator, Mr. Goldin, was 
fond of saying that he was going to darken the skies with X-
vehicles to demonstrate these new launch technologies. And I 
would submit to you, in the 17 years that have elapsed, not a 
single technology demonstrator has ever been flown in space.
    Senator Brownback. Mr. Knauer, where could we be right now?
    Mr. Knauer. We certainly could have made a lot of progress 
over the ensuing 30 years. If you take a look at history, the 
last major rocket propulsion system truly developed using new 
technology was the shuttle system in the 1970s. All systems 
since then, except for the excursion into NASP, where we did 
explore some new technology, have basically been based on the 
existing technology of the 1960s, 1970s, even what we have done 
most recently today.
    So in that time period, there have been three new total 
rocket engines built by U.S. companies from 1970 until today. 
Byron mentioned the Russian investment. The Russians have built 
more than 60. They have made an investment in that area. They 
have generated some capability that is far superior to ours in 
certain technologies of rocket propulsion, because of that 
investment.
    That technology is available to us, and we use it 
regularly, as mentioned earlier, on the Atlas V program. It is 
a great technology that does not require us to reinvent the 
wheel and pay for an investment in their technology that they 
are willing to share with us, and are sharing with us readily.
    Where we need to focus on is the future, the next 
generation. NAI is a great opportunity. The work that was done 
on NASP clearly laid the groundwork. The work being done today, 
with Dr. Sega, on the NAI initiative provides us with that next 
set of hypersonic propulsion systems.
    If you think about NASA's initiative with OSP, flying on 
EELVs beginning in 2008 in demonstration, and then going 
operational in 2010, with human-up capability in 2012, then the 
NAI initiative, if properly funded, will have demonstrated all 
the core technologies we need for a NASP-type vehicle, either 
single-stage or two-stage-to-orbit. This will significantly 
reduce the cost and increase the reliability of the system 
going forward.
    Those type of investments clearly could be made and would 
allow us to make great leaps and advances in where we are 
going. Combining that with the on-orbit propulsion capability, 
as Project Prometheus will do, would move us a great distance. 
I think the key is not to duplicate work that has already been 
accomplished.
    Senator Brownback. Mr. Crocker?
    Mr. Crocker. Mr. Chairman, I am extremely encouraged by the 
direction that Prometheus is taking, because it is not just a 
technology program. It is a technology development program with 
a destination.
    JIMO gives a focus to this mission. It is a place we are 
going. Because of that, we can really build something that will 
meet the full requirements of the mission, from the systems 
that we need to launch Prometheus into space and escape the 
Earth's gravitational field, all the way to the planet and to 
the moons. It is extremely important, and I think NASA is 
showing great vision here by identifying, early on for 
Prometheus, the first mission of JIMO.
    This really gives you the opportunity to look across the 
broad spectrum of technologies that are needed, from launch 
systems all the way through to the systems to propulse the 
system, and not just coast, as Dr. Weiler pointed out, to the 
science instruments that we will need to develop.
    You know, I had a meeting a while back with a number of 
scientists that I know at Johns Hopkins University, where I was 
employed for a number of years, and these scientists said, 
``You know, we really have to start rethinking the kind of 
science that we can do with nuclear-powered systems.'' We are 
used to our instruments having a few hundred watts, basically 
something that would light up a few reading lamps in your room. 
And all of a sudden, we may have systems available that could 
have potentially tens of kilowatts. So we have to rethink the 
science that we can do, and we need to start doing that today, 
because the instruments themselves will be extremely different.
    So by having a mission, I think this is the vision that we 
need to lay out the capabilities, the technology development 
programs, from launch all the way to instruments, and that is 
extremely important not to focus on one small portion of the 
mission, but to look from end to end to understand the 
capabilities that are required.
    Senator Brownback. You know, the question that just leaps 
out at all this, and I just--I do not understand it, and maybe 
you will be able to get it in understandable form for me. I 
have just recently taken over this committee. I have been on 
the Commerce Committee for some time. This is a wonderful 
topic. NASA, space exploration, it is the stuff of dreams and 
visions, and it is the exact sort of thing that we want to be 
showing to our children, our grandchildren, and the rest of the 
world. This is the stuff we want to hold up and say, ``This is 
what great societies do.'' And we want to do it, and we want to 
share these pictures with everybody, and we want people to 
dream of moving forward. But why is it that we have not been 
able to stick with it long enough to move forward? And why was 
the last really great dream of space going to the moon nearly 
40 years ago? I do not understand why we have not been able to 
either stay on focus or be visionary enough in that period of 
time. I do not know if any of you can answer that. Maybe, if 
you can, maybe it will tell us how we can stay on focus this 
time well enough.
    Mr. Sietzen. Senator, if you look at the historical record, 
when NASA has been the most successful in implementing its 
programs and when it has the most difficulty in achieving the 
consensus in the Congress and the country, it has historically 
been the case when a simple, clear, overarching goal has been 
set forward. That is when the agency has been able to build its 
constituency around that goal. That was the case with the 
decision to go to the moon. It has not been the case since.
    If you went outside today, I would suspect, and asked three 
people, ``What do you want from your space program,'' you would 
not get the same answer. If we had a central organizing 
principle that was clear and supported not only by the 
Congress, but by the President, then the architecture that we 
build the space transportation components around would make 
sense. But if you do not have a national purpose that everyone 
can share, then it is very difficult to design systems to 
implement that. Upper stages, boosters, on-orbit propulsion 
systems. I am not saying it ought to be Mars or the moon or 
anything else. But the record suggests NASA is at its best when 
it has a very clearly defined goal, that has been given to it 
by the President and the Congress, and goes out and implements 
it.
    Senator Brownback. Anybody else on that question?
    Mr. Crocker. Mr. Chairman, I would agree that it is--it is 
vision. There is no question about it. And I think that NASA's 
vision is captivating. It is about exploration. But it is not 
about human exploration or robotic exploration; it is about 
exploration. Some missions are best done with humans, and some 
best done with robots; and some in the future, we will 
discover, are only enabled when we work with the two together 
collectively.
    But I think that what we have to have is not only a vision, 
but we have to have a determination to continue those visions 
across administrations and sometimes for decades. You know, it 
did take almost a decade for us to go to the moon. Project 
Prometheus will not be done in a year or two. It will take a 
few years of technology, and several years of very focused, 
very dedicated development activities. We could probably launch 
in 2011. But it will take a concerted, focused effort, and a 
vision of where we want to go, because if you do not know where 
you are going, any road will take you there.
    Senator Brownback. Mr. Wood?
    Mr. Wood. Mr. Chairman, I think that you have hit the nail 
on the head, that we somehow have lost the thread. In the 
1960s, it was kind of an easy call, because going to the moon 
was in direct opposition to what we viewed as the ``evil 
empire'' at that time, and I believe there was a good deal of 
competitive and good old U.S. spirit behind that, and it 
captured everyone's imagination and, in a country that did not 
know much about propulsion and going anywhere in those days, 
was able to achieve a stunning victory by going to the moon in 
a decade.
    Today, we have so many different things pulling on us, and 
they are real things. In the early 1980s, the space station 
looked like it was that same kind of thing, but it has taken a 
long time, and a lot of things have gone by us in that period.
    Today, I think that vision has got to be clearly married 
with, ``What does the U.S. want to be about in military and 
civil space?'' I am not sure that we can decide that Prometheus 
is all we need to do. We have seen, in the last months, the 
great dependency on space-based assets to this country. It is 
what this country is all about, as a matter of fact, and it has 
changed the whole concept of how the world works. I think built 
around that has to be the concept, ``Are we going to maintain 
ourselves as the premier propulsion providers in the world for 
the combined military/civil mission that this country must 
maintain in the near- and the long-term future?''
    Senator Brownback. Mr. Knauer?
    Mr. Knauer. Yes, sir. There have been some great 
accomplishments in the last 40 years. After the moon mission, 
we have been to Saturn, we have been to Mars. Your weather 
today comes from satellites. One of the things that I think we 
do not do a good job of is communicating the great things that 
have been accomplished and of communicating the benefits of 
those things.
    A friend of mine jokingly said he was talking to his 
college professor about where does he think he gets his weather 
from, and he said, ``Well, I turn on The Weather Channel,'' 
obviously totally missing the point of where the assets are 
that generate the capability that we have in space to better 
our lives.
    We made an investment decision--right, wrong, indifferent--
we made an investment decision in the systems for advanced 
sensors, for advanced technology, microcomputers. All those 
decisions were made in that time period to invest in that 
category of technologies. Some of our others, who we were 
competing against in the world market, chose a different path 
at that time, and we saw the result of that with the demise of 
the former Soviet Union and the Cold War.
    So those investments were not bad that we made. I do not 
want anybody to think that we believe that those investments 
were inappropriate and not the right things to do. They were 
definitely the right things to do. But we could have done more 
had there been enough funds available to go do more, and that 
is a tough decision we all have to make, that you in Congress 
had to make, that the presidents at the time had to make about 
the priorities and the funding levels that were available to go 
do the things that we could go do.
    Today, we could fly to Australia in 90 minutes. Technology 
is available. We know what we need to go do in order to make 
that happen. We have the propulsion systems, enough basic 
technology, well understood, that you could go to Sydney for 
lunch and come back if you wanted to.
    But it takes a commitment, as we have pointed out, a need, 
a national desire, a benefit, that somebody says, ``Yes, 
verily, that is a goal that we need to achieve. That is 
something that we need to do for a purpose.'' And that is what 
is missing. That purpose.
    Senator Brownback. I liked what one of you said, as well--I 
think it was Mr. Wood--that this country is very gifted and can 
achieve great things. Our problem is deciding, or it is 
focusing. You know, there are 1,000 things out here to do. OK, 
what is it that we are really going to focus in on? Because you 
cannot do all 1,000. You can do a few of these, and you have to 
get focused and deliver on it. And I think that has been our 
greatest problem as a Congress, as well as focusing on those 
few things that we really want to invest in and get done.
    My dilemma in this, with NASA--and the space program is a 
wonderful program--is that I do not feel like we are adequately 
sowing the visions for our next generation, which, to me, is 
something that leadership should clearly be about, and 
sometimes probably the most about, is sowing that vision for, 
``Here is where we are moving toward.'' And you can make right 
decisions, you can make wrong decisions, but you need to make a 
decision and press forward toward it in a true capacity as 
leading, and leading the country and where this country leads 
the world.
    Gentlemen, it was a very interesting discussion, and I 
particularly appreciate your statements on Prometheus and the 
advanced power and propulsion systems. I think it is a basic 
tool that has to be delivered upon. I think everybody here on 
this panel clearly agrees with that, and NASA does, as well. We 
are going to see what we can do to press that forward even more 
aggressively, because that is one of the basic systems approach 
that we have to move with.
    Appreciate very much you joining us. The record will stay 
open for a requisite number of days for people to be able to 
look at.
    The hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]
    
                           [all]

                  This page intentionally left blank.


      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
